No. _____
_______________________________
IN THE SUPREME COURT OF THE UNITED STATES
_______________________________
JERMONT COX,

Petitioner,
v.
COMMISSIONER, PA. DEPT. OF CORRECTIONS, ET AL.,

Respondents.
______________________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
______________________________
APPENDIX
______________________________
STUART LEV
SENIOR LITIGATOR

Counsel of Record

LOREN STEWART
JAHAAN SHAHEED
JESSICA TSANG
Assistant Federal Defenders
Federal Community Defender Office
for the Eastern District of Pennsylvania
601 Walnut Street, Suite 540 West
Philadelphia, PA 19106
(215) 928-1100
Stuart_Lev@fd.org
October 30, 2020

TABLE OF CONTENTS

PAGE

Third Circuit Court of Appeals Order Denying Certificate
of Appealability (June 5, 2020) ........................................................................App. 1
Opinion of U.S. District Court, Eastern District of Pennsylvania,
Cox v. Horn, 2018 WL 4094963 (E.D. Pa. Aug. 28, 2018) ..............................App. 3
Opinion of Third Circuit Court of Appeals,
Cox v. Horn, 757 F. 3d 113 (3d Cir. Aug. 7, 2014) ........................................App. 20
U.S. District Court, Eastern District of Pennsylvania Explanation
and Order Denying Motion for Relief, (E.D. Pa. May 23, 2013)..................App. 31
Memorandum of the Pennsylvania Superior Court,
Commonwealth v. Cox, 2529 Phila. 1998 (Pa. Super. July 15, 1999) ...........App. 35
Memorandum of the Pennsylvania Superior Court,
Commonwealth v. Cox, 1303 Phila. 1994 (Pa. Super. June 2, 1995) ............App. 42
Revised Ballistics Report, Philadelphia Police Department
Firearms Identification Unit (April 23, 2013) .............................................App. 46

Case: 19-3739

Document: 19-1

Page: 1

Date Filed: 06/05/2020

BLD-201
May 21, 2020
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 19-3739
JERMONT COX, Appellant
VS.
COMMISSIONER PENNSYLVANIA DEPARTMENT OF CORRECTIONS; ET AL.
(E.D. Pa. Civ. No. 2-00-cv-05188)
Present:

AMBRO, GREENAWAY, Jr., and BIBAS, Circuit Judges
Submitted are:
(1)
Appellant’s unopposed motion for leave to file
application for certificate of appealability that exceeds length
limitation
(2)

Appellant’s application for a certificate of appealability

in the above-captioned case.
Respectfully,

Clerk
________________________________ORDER_________________________________
Appellant’s unopposed motion for leave to exceed the page limitation for his
application for a certificate of appealability (COA) is granted. His application for a COA
is denied because reasonable jurists would not debate whether the District Court abused
its discretion in denying his motions pursuant to Rule 60(b) of the Federal Rules of Civil
Procedure. See Slack v. McDaniel, 529 U.S. 473, 484 (2000); Buck v. Davis, 137 S. Ct.
759, 777 (2017). In particular, jurists of reason would agree that Appellant failed to
demonstrate that his procedurally defaulted ineffective assistance of trial counsel claims
are “substantial,” i.e., that they have “some merit.” Martinez v. Ryan, 566 U.S. 1, 14
(2012). Jurists of reason would also agree that Appellant failed to demonstrate that the

App. 1

Case: 19-3739

Document: 19-1

Page: 2

Date Filed: 06/05/2020

other factors we identified in his prior appeal counsel in favor of reopening the habeas
proceedings. See Cox v. Horn, 757 F.3d 113, 124-26 (3d Cir. 2014).
By the Court,
s/Joseph A. Greenaway, Jr.
Circuit Judge
Dated: June 5, 2020
PDB/cc: All Counsel of Record

App. 2

Cox v. Horn, Not Reported in Fed. Supp. (2018)

2018 WL 4094963
Only the Westlaw citation is currently available.
United States District Court, E.D. Pennsylvania.
Jermont COX, Petitioner,
v.
Martin HORN, Connor Blaine, The District Attorney
of the County of Philadelphia, and the Attorney
General of the State of Pennsylvania, Respondents.
CIVIL ACTION NO. 00-5188
|
Signed 08/28/2018
Attorneys and Law Firms
Stuart B. Lev, Victor Julio Abreu, Arianna Julia Freeman,
Loren D. Stewart, Federal Community Defender for EDPA,
Philadelphia, PA, for Petitioner.
Helen Kane, Thomas W. Dolgenos, Marilyn F. Murray,
Max Cooper Kaufman, Philadelphia District Atty's Office,
Simran Dhillon, Conrad O'Brien PC, Philadelphia, PA, for
Respondents.

MEMORANDUM OPINION
EDWARD G. SMITH, District Judge
Martinez v. Ryan, 566 U.S. 1 (2012), the Supreme
*1 In
Court of the United States held that error by post-conviction
counsel can constitute cause to overcome the procedural
default of substantial ineffective assistance of trial counsel
claims. The petitioner here, convicted of first-degree murder
in 1993, moved for relief pursuant to Federal Rule of Civil
Procedure 60(b)(6) on the heels of Martinez in 2012. He
argued that Martinez permitted the district court to consider
the merits of ineffective assistance of trial counsel claims the
court previously deemed procedurally defaulted during the
court's initial consideration of his section 2254 habeas corpus
petition in 2004. While the district court denied the
Rule
60(b)(6) motion, the Third Circuit vacated and remanded,
holding that while Martinez alone cannot entitle a petitioner
to 60(b)(6) relief, the combination of Martinez and additional
factors, not considered by the district court, could.

Roughly concurrent with the petitioner's Martinez motion,
the Commonwealth of Pennsylvania reexamined ballistics
evidence from his 1993 trial. Although the ballistics evidence
at trial was inconclusive as to whether the two bullets
recovered from the murder victim originated from the same
gun, the new ballistics report in 2013 concluded that they
did not. The petitioner therefore filed a second
Rule
60(b)(6) motion, arguing that the new ballistics report is an
extraordinary circumstance permitting relief from the court's
previous denial of habeas relief.
Currently before the court are the petitioner's two
Rule
60(b)(6) motions—the first on remand from the Third
Circuit, and the second based on the ballistics evidence.
Following a stay of federal habeas proceedings to allow
the petitioner to exhaust state remedies, the parties filed
supplemental memoranda on the motions. As explained
below, the court finds that it lacks jurisdiction over the
petitioner's
Rule 60(b)(6) ballistics motion because that
motion is a second or successive petition lacking appellate
authorization. Additionally, even if the motion was not an
unauthorized second or successive petition, it is untimely and
lacks merit because the new ballistics report is consistent
with the petitioner's own admission that he fired two shots,
belying his defense of accident. As for his motion based on
Martinez, although the petitioner's murder conviction in this
case served as an aggravating factor towards a death sentence
in a subsequent murder case, and although the petitioner
has diligently pursued his defaulted ineffective assistance of
trial counsel claims, those claims are neither meritorious nor
substantial, as required by Martinez. Accordingly, the court
will deny the petitioner's

Rule 60(b)(6) motions.

I. PROCEDURAL HISTORY
In recounting the 25-year procedural history of this case, the
court borrows liberally from the Third Circuit's relatively
recent procedural recitation, beginning with the 1993 trial of
the petitioner, Jermont Cox (“Cox”).
On October 28, 1993, following a bench trial before the
Hon. Carolyn Engel Temin of the Court of Common
Pleas of Philadelphia County, Cox was convicted of firstdegree murder, criminal conspiracy, and possession of an
instrument of crime in connection with the July 19, 1992
shooting death of Lawrence Davis, and was sentenced to
life imprisonment.

App. 3
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Cox v. Horn, Not Reported in Fed. Supp. (2018)

*2 In a statement he gave to the police at the time of his
arrest, Cox confessed to shooting Davis, but said that the
shooting had been accidental. He and a friend, Larry Lee,
he said, had gone to a drug house operated by Lee. While
they were outside drinking, Lee got into a dispute with
Davis that escalated into a physical altercation. At some
point, Lee handed Cox a gun that was already cocked. Cox
shot twice, hitting Davis, and then handed the gun back to
Lee. According to Cox, he later told family members that
the shooting had been an accident. 1
To prove at trial that Cox had the requisite intent for
first-degree murder, the Commonwealth presented the
testimony of Kimberly Little, an eyewitness. Little testified
that Cox and Lee worked for a drug organization that
was run out of an apartment in her building: Cox was
a “lookout” and Lee supplied the operation's drugs. On
the night of Davis' death, Little saw from her window
an argument erupt between Davis and Lee. According to
Little, Cox then exited a local bar with a six-pack of beer,
approached the two men, placed the six-pack on the hood
of Lee's nearby car, retrieved a gun from the car, walked
to within four feet of Davis, and shot him three times. Cox
stopped to drink a beer, and he and Lee left in Lee's car.
The Commonwealth's other witnesses were Kimberly
Little's sister, Mary Little; the medical examiner; and a
ballistics expert. Mary Little confirmed that Cox and Lee
were neighborhood drug dealers and that she saw them
drive off together after the shooting. The medical examiner
asserted that Davis had four wounds caused by at least
three bullets, 2 and the ballistics expert explained that it
was unlikely the shooting was accidental given the number
of shots fired. 3
Trial counsel filed post-verdict motions on Cox's behalf.
Cox also filed a motion pro se alleging trial counsel's
ineffectiveness and requesting the appointment of new
counsel. In February of 1994, Judge Temin held a hearing
on the post-verdict motions. At the hearing, Cox testified
in support of his pro se motion and outlined trial counsel's
alleged failings: trial counsel (1) failed to present testimony
from various character witnesses; (2) failed to find a
witness, identified by Cox, who would have testified that
“guys from the neighborhood” forced Kimberly Little to
give a false statement to the police; (3) failed to review
paperwork that Cox provided him; and (4) dissuaded Cox
from taking the stand in his own defense. In response, trial
counsel stated that he found himself in “a very untenable

position” and asked that he be permitted to withdraw. Judge
Temin denied the request as well as the pro se motion,
finding Cox's claims of ineffectiveness to lack merit. She
later denied the counseled post-verdict motions.
Cox, still represented by trial counsel, appealed his
conviction, challenging the sufficiency of the evidence
and the admission of evidence relating to uncharged drug
activity. In June of 1995, the Pennsylvania Superior Court
affirmed the judgment of sentence. Cox then filed a pro se
petition for allocatur in the Pennsylvania Supreme Court,
raising claims of trial counsel's ineffective assistance at the
trial and on appeal. New counsel was appointed for Cox and
submitted a supplemental allocatur petition. The Supreme
Court denied allocatur in April of 1996.... 4
The following month, Cox filed a pro se petition under
Pennsylvania's Post Conviction Relief Act (“PCRA”), 42
Pa. Cons. Stat. Ann. §§ 9541–9546. The attorney who
had represented Cox in his petition to the Pennsylvania
Supreme Court was again appointed to represent Cox in his
collateral review proceeding under PCRA. Counsel filed
an amended PCRA petition asserting claims of ineffective
assistance of trial counsel.... 5 Judge Temin, sitting as
the PCRA court, held a hearing at which PCRA counsel
chose to proceed on only one of the multiple claims of
trial counsel's ineffectiveness: failure to impeach the with
their criminal records and motive to curry favor with the
Commonwealth to gain leniency in their own cases.
*3 On August 28, 1998, Judge Temin denied
postconviction relief, finding that Cox had not been
prejudiced by trial counsel's failure to impeach Kimberly
and Mary Little with their criminal records because
evidence aside from their testimony established his guilt.
The Superior Court affirmed in July of 1999 and the
Supreme Court denied allocatur in December of that
year. Cox filed a second PCRA petition pro se, alleging
ineffective assistance claims against trial and PCRA
counsel. Judge Temin dismissed the petition as untimely,
and the Superior Court affirmed after Cox failed to file a
brief.
In October of 2000, Cox, now represented by the Federal
Defender, filed a petition for a writ of habeas corpus in
the U.S. District Court. The petition raised eight grounds
for relief: (1) six claims of ineffective assistance of trial
counsel; (2) one violation of
Brady v. Maryland, 373
U.S. 83 (1963); and (3) a claim of cumulative error.

App. 4
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Cox v. Horn, Not Reported in Fed. Supp. (2018)

In July of 2003, a magistrate judge issued a report and
recommendation (“R & R”) in which he determined that the
ineffective assistance claims abandoned by PCRA counsel
before the PCRA court, as well as the Brady and cumulative
error claims, were procedurally defaulted. He reviewed the
remaining claim of ineffective assistance—trial counsel's
failure to impeach the Littles with their criminal records—
and concluded that the Superior Court's decision rejecting
that claim was neither “contrary to” nor an “unreasonable

approach to
Rule 60(b)(6) motions,” the court vacated
the district court's May 23, 2013 order and remanded for
a determination of whether, with supplemental briefing, the
petitioner could demonstrate “much more” than just Martinez.
Id. at 115, 122, 126.
1

The relevant portions of Cox's statement are as
follows:
When I got to where Larry was, he handed me
the gun. He took it from his waist and handed it
to me. It was silver, .357 or .38, a pretty big gun.
I was really not sure which.
When I got the gun, it was already cocked. That's
when I fired two shots. When I fired the shots, I
was [approximately two feet from the victim].
After the two shots, I saw that he was hit and I
[sic] fell to the ground. Larry then took the gun
and we left.
Trial Tr. Oct. 27, 1993, at 104. After being asked
whether he ever talked to Larry Lee about the
shooting, Cox replied, “He just said[,] ‘What's done
is done. The police aren't going to look on it as an
accident.’ ” Id. at 106–07. Finally, Cox stated that
he had told his uncle and mother about the murder,
explaining to them that “Larry had a scuffle[,] and
I shot someone accidentally.” Id. at 107.
Testifying at his suppression hearing, Cox referred
to the shooting as “accidental,” and appears to offer
contradicting information about the location of the
murder weapon at the time of the shooting: “In this
statement it says this weapon was handed to me by
a male which [sic] was fighting the deceased. That
makes it seem a little bit worse than what it is.” Id.
at 44, 48.

2

The medical examiner also opined that “all the
shots are coming from the right side and are pretty
much horizontal and proceeding leftward.” Trial Tr.
Oct. 28, 1993, at 94.

3

Specifically, the ballistics expert's testimony as to
an accidental shooting is as follows:
[C]ertainly firearms can be accidentally fired,
and I'm talking about not the firearm being the
cause, but an accidental or unintentional trigger
pull. There can be malfunctions in the firearm.
With three shots being fired, it kind of like
multiplies that possibility unlikely [sic]. One
shot, especially without having the firearm,

28 U.S.C.
application” of established federal law. [See
§ 2254(d)(1).] Cox filed objections to the R & R, arguing
that PCRA counsel's unilateral decision to abandon claims
constituted cause to overcome the procedural default bar.
In August of 2004, the District Court rejected Cox's
objections, adopted the R & R, and dismissed the habeas
petition.... We affirmed on appeal. Cox v. Horn, 174 F.
App'x 84 (3d Cir. 2006) [ (“Cox I”) ].
Six years later, on June 20, 2012, Cox filed a motion
pursuant to
Federal Rule of Civil Procedure 60(b)(6)
seeking relief from the District Court's order of dismissal
due to the intervening change in procedural law occasioned
by the March 20, 2012 decision of the Supreme Court
of the United States in Martinez v. Ryan. The Court held
in Martinez that, under certain circumstances, error by
post-conviction counsel can constitute cause to overcome
the procedural default of claims alleging trial counsel's
ineffective assistance. Cox argued that it was only due to
PCRA counsel's ineffective assistance at the initial PCRA
proceeding that his claims of ineffectiveness against trial
counsel had been abandoned and were now procedurally
defaulted.
On May 23, 2013, the District Court denied Cox's motion,
finding that “Martinez's change of law, without more,” was
not cause for relief. In a separate July 2, 2013 order, the
District Court issued a certificate of appealability on the
“legal question” of “whether the change in law resulting
from Martinez constitutes extraordinary circumstances that
would warrant relief” under

Rule 60(b)(6).

Cox II, 757 F.3d at 116–18 (internal citations to appellate
record omitted and case citations altered). On appeal, the
Cox II court held that
Rule 60(b)(6) relief requires
“much more” “than the concededly important change of law
wrought by Martinez.” Id. at 115 (internal quotation marks
omitted). However, in reaffirming a “flexible, multifactor

App. 5
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Cox v. Horn, Not Reported in Fed. Supp. (2018)

we can't tell whether it was defective, I have
no firearm submitted, I don't know if it was
accidentally discharged by the shooter, but once
you have two shots, and then three shots,
especially if it's a revolver, you have to pull a
double action trigger and/or cock the hammer
every time you are going to fire that particular
shot.
Trial Tr. Oct. 28, 1993, at 57–58. The ballistics
expert also explained that he could not determine
whether the two bullets recovered from Davis's
body originated from the same firearm:
There
are
insufficient
microscopic
characteristics to permit a positive identification
between the two bullet specimens, one bullet
specimen being mutilated and gouged, the other
projectile being constructed of the copper alloy
jacket. There were [sic] a lack of markings to
identify them as both being fired from the same
firearm.
Id. at 55. Lastly, the ballistics expert opined that
the two recovered .38 special caliber bullets likely
originated from a revolver:
The vast majority of firearms in that caliber
are revolvers. However, there are semiautomatic
pistols also in that caliber. Due to the lack of no
fired cartridge cases submitted to our unit, that
would be an indicator that it is a revolver, but it
doesn't rule it out, that it's not a semiautomatic.
Id. at 54, 56.
4

The Third Circuit noted that by this time,
Cox had also been convicted of the 1992
first-degree murders of Roosevelt Watson and
Terence Stewart, both of whom he aided Lee in
killing. Cox was sentenced to life imprisonment
for the murder of Watson and death for
the murder of Stewart. His conviction for
murdering Davis was found to be an aggravating
factor in support of his capital sentence. See
Commonwealth v. Cox, 983 A.2d 666, 673–
75 (2009).
Cox v. Horn, 757 F.3d 113, 117 n.1 (3d Cir.
2014) (“Cox II”) (citation altered).

5

The Third Circuit noted that Cox's counseled
PCRA petition raised the following ineffective
assistance of trial counsel claims:

The counseled PCRA petition claimed that trial
counsel had provided constitutionally deficient
representation when he failed to impeach the
Little sisters with (1) the fact that they had
charges pending against them when they first
gave statements to the police, were eventually
convicted of lesser charges, and were on
probation at the time of trial; (2) their alleged
familial relationship to the murder victim,
Davis; and (3) a prior inconsistent statement by
Kimberly Little. Trial counsel was also allegedly
deficient for failing to present evidence of Cox's
lawful employment.
Cox II, 757 F.3d at 117 n.2.
Rule 60(b)(6)
*4 Before filing his June 20, 2012
motion, Cox also moved for discovery of ballistics evidence
and examination records in the federal habeas proceedings
associated with the Watson and Stewart murders. See Civil
Action No. 00-5289, Doc. No. 32; Civil Action No. 10-2673,
Doc. No. 12. The Honorable Anita B. Brody granted Cox's
discovery motion on February 7, 2012, which apparently
spurred the Commonwealth to reexamine the ballistics
evidence in the Davis murder. See Civil Action No. 00-5289,
Doc. No. 40; Civil Action No. 10-2673, Doc. No. 17.
The officers conducting the reexamination, dated April 23,
2013, concluded that the two bullets recovered from Davis's
body, “when compared against each other, were NOT fired
from the same firearm.” Suppl. Mem. Supp. Pet'r's Mot.
Relief Final J. Pursuant
Fed. R. Civ. P. 60(b)(6) (“Pet'r's
Suppl. Mem.”), Ex. A at 3, Doc. No. 95-1. The officers
noted that their examination and the previous examination
were not in complete agreement. See id. Arguing that the
ballistics reexamination undermines the district court's and
Third Circuit's rationale in denying habeas relief, Cox filed
another

Rule 60(b)(6) motion on August 5, 2013. See

Pet'r's Mot. Relief Final J. Pursuant
(6) at 1, Doc. No. 82.

Fed. R. Civ. P. 60(b)

Then-Chief Judge Petrese B. Tucker reassigned the instant
case from Judge Brody's calendar to the undersigned's
calendar on June 10, 2014. See Doc. No. 83. At the request
of counsel, the court stayed each of Cox's three federal
habeas cases due to pending PCRA petitions in state court
challenging the three murder convictions on the basis of the
new ballistics evidence. See Order at 1–2, Doc. No. 90; see
also Civil Action No. 00-5289, Doc. No. 64, Civil Action No.
10-2673, Doc. No. 43. After exhausting state court remedies,

App. 6
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Cox v. Horn, Not Reported in Fed. Supp. (2018)

Cox filed a counseled supplemental memorandum in support
Rule 60(b)(6) motion. Doc. Nos.
of his August 5, 2013
91, 95. The respondents filed a response to the motion on
November 27, 2017. Doc. No. 105. Finally, Cox filed a
counseled reply on February 9, 2018. Doc. No. 110. Cox's

unexpected hardship would occur.”

(quoting
Sawka v. Healtheast, Inc., 989 F.2d 138, 140 (3d
Cir. 1993) ). Courts in this circuit employ
a flexible, multifactor approach to
Rule 60(b)(6)
motions, including those built upon a post-judgment
change in the law, that takes into account all the particulars
of a movant's case. See Coltec Indus., Inc. v. Hobgood,
280 F.3d 262, 274 (3d Cir. 2002) (noting, in the context
of a 60(b)(6) analysis, the propriety of “explicit[ly]”
considering “equitable factors” in addition to a change

June 20, 2012 ~l Rule 60(b)(6) motion, on remand from the
Third Circuit, and August 5, 2013
are now ripe for review.

Rule 60(b)(6) motion

II. DISCUSSION

in law);
Lasky v. Cont'l Prods. Corp., 804 F.2d 250,
256 (3d Cir. 1986) (citing multiple factors a district court
may consider in assessing a motion under 60(b)(6) ). The
fundamental point of 60(b) is that it provides “a grand
reservoir of equitable power to do justice in a particular

A. Standards Of Review

1.

Rule 60(b)(6)

Rule 60(b) of the Federal Rules of Civil Procedure
provides that a party may file a motion seeking relief from
“a final judgment, order, or proceeding” for the following
reasons:
(1) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence that, with reasonable
diligence, could not have been discovered in time to move
for a new trial under Rule 59(b);
(3) fraud (whether previously called intrinsic or extrinsic),
misrepresentation, or misconduct by an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released or discharged;
it is based on an earlier judgment that has been reversed or
vacated; or applying it prospectively is no longer equitable;
or
(6) any other reason that justifies relief.
Fed. R. Civ. P. 60(b). “A motion under Rule 60(b) must
be made within a reasonable time—and for reasons (1), (2),
and (3) no more than a year after the entry of the judgment or
order or the date of the proceeding.”
(1).

Fed. R. Civ. P. 60(c)

A
Rule 60(b)(6) movant must show “extraordinary
circumstances where, without such relief, an extreme and

Cox II, 757 F.3d at 115

case.” Hall v. Cmty. Mental Health Ctr., 772 F.2d 42, 46
(3d Cir. 1985) (internal quotation marks omitted).
*5 Id. at 122 (footnote omitted).

2. The Relationship Between
Rule 60(b) Motions
and Second or Successive Habeas Corpus Applications
“When a motion is filed in a habeas case under a
Rule
60(b) ... label, the district court must initially determine
whether the motion is actually a ‘second or successive’
habeas petition within the meaning of [ 28 U.S.C.] §
2244(b).” Davenport v. Brooks, Civil Action No. 06-5070,
2014 WL 1413943, at *3 (E.D. Pa. Apr. 14, 2014). Pursuant
to

section 2244(b),
[a] claim presented in a second or successive habeas corpus
application under [ 28 U.S.C. § 2254] that was not
presented in a prior application shall be dismissed unless ...
(A) the applicant shows that the claim relies on a new
rule of constitutional law, made retroactive to cases
on collateral review by the Supreme Court, that was
previously unavailable; or
(B)(i) the factual predicate for the claim could not have
been discovered previously through the exercise of due
diligence; and

App. 7
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Cox v. Horn, Not Reported in Fed. Supp. (2018)

(ii) the facts underlying the claim, if proven and viewed
in light of the evidence as a whole, would be sufficient to
establish by clear and convincing evidence that, but for
constitutional error, no reasonable factfinder would have
found the applicant guilty of the underlying offense.
28 U.S.C. § 2244(b)(2). “Before a second or successive
application ... is filed in the district court, the applicant
shall move in the appropriate court of appeals for an order
authorizing the district court to consider the application.”
§ 2244(b)(3)(A). Failure to seek appellate authorization
before filing a successive petition acts as a jurisdictional
Blystone v. Horn, 664 F.3d 397, 412 (3d Cir.
bar. See
2011) (“A petitioner's failure to seek such authorization
from the appropriate appellate court before filing a second
or successive habeas petition ‘acts as a jurisdictional bar.’
” (quoting
2000) ) ).

United States v. Key, 205 F.3d 773, 774 (5th Cir.

i

If a petitioner in a
section 2254 habeas proceeding
files a motion containing a “claim,” even if he labels it

d

as a
Rule 60(b) motion for relief, the motion is in
substance a second or successive habeas corpus application.
See

d

Gonzalez v. Crosby, 545 U.S. 524, 531 (2005)

erred in denying habeas relief on the
merits is effectively indistinguishable
from alleging that the movant is,
under the substantive provisions of the
statutes, entitled to habeas relief.

Id. at 532 (emphasis in original).

3. Ineffective Assistance of Counsel
With regard to claims of ineffective assistance of counsel,
a petitioner must satisfy the two-part test set forth in
Strickland v. Washington, 466 U.S. 668, 687 (1984).
First, the petitioner must show that counsel's representation
was deficient because it was not “within the range of
competence demanded of attorneys in criminal cases.”
Id. at 688. That is, the petitioner must demonstrate that
counsel's representation fell below an “objective standard of
reasonableness” based on the facts and circumstances present
at the time of counsel's allegedly deficient conduct. Id. In
attempting to satisfy this burden, a petitioner has to overcome
the “strong presumption that counsel's conduct falls within
the wide range of reasonable professional assistance; that is,
the defendant must overcome the presumption that, under
the circumstances, the challenged action might be considered

As for the second element of the Strickland test, a petitioner

section 2244(b)’s aforementioned
the motion is subject to
requirements, including appellate authorization. Id. A “claim”

sound trial strategy.”

(concluding that
Rule 60(b) motions containing “claims,”
“is in substance a successive habeas petition”). Accordingly,

i

under

section 2244(b), is “an asserted federal basis for

relief from a state court's judgment of conviction.”

Id. at

530. A
Rule 60(b) motion does not assert a claim when it
“attacks, not the substance of the federal court's resolution of
a claim on the merits, but some defect in the integrity of the

Id. at 689.

must demonstrate prejudice.
Id. at 687. To demonstrate
prejudice, a petitioner must show that “there is a reasonable
probability that, but for counsel's unprofessional errors,
the result of the proceeding would have been different. A
reasonable probability is a probability sufficient to undermine
confidence in the outcome.”

Id. at 694.

i

federal habeas proceedings.”
Id. at 532. Examples of nonmerits rulings include those denying habeas relief for failure
to exhaust, procedural default, or a statute-of-limitations bar.
Id. at 532 n.4. However, a
claim

Rule 60(b) motion asserts a

B. Analysis
In vacating the May 23, 2013 order denying Cox's June

i

20, 2012
Rule 60(b)(6) motion and remanding to this
court, the Cox II court offered instructions for further

i

Cox's motion. 757 F.3d at 124. First, as
review of
discussed above, the court held that “the jurisprudential
change rendered by Martinez, without more, does not entitle

*6 if it attacks the federal court's
previous resolution of a claim on the
merits, ... since alleging that the court

App. 8
M'lfl1S3M

6

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Cox v. Horn, Not Reported in Fed. Supp. (2018)

a habeas petitioner to
Rule 60(b)(6) relief.” Id. Second,
because the Martinez exception to procedural default requires
a “substantial” underlying ineffective assistance of trial
counsel (“IATC”) claim, the court may assess the merits of
Cox's procedurally defaulted IATC claims. Id. at 124–25.

Cox's
Rule 60(b) motion requesting relief based on the
new ballistics report is a second or successive habeas petition
because the report attacks the merits of his conviction, not the
court's prior refusal to consider procedurally defaulted IATC
claims.

Third, in the habeas context,
Rule 60(b)(6) relief must be
“rare,” the principle of comity weighs against disturbing a

As an initial matter, courts have repeatedly held that new

Rule 60(b) motion, and
state's criminal judgment via a
“[c]onsiderations of repose and finality become stronger the
longer a decision has been settled.” Id. at 125 (citations
omitted). Fourth, “[a] movant's diligence in pursuing review
of his [IATC] claims is also an important factor.” Id. at 126.
Finally, the fact that Cox's conviction in the Davis murder
case served as an aggravating factor for his receiving a death
sentence in the Stewart murder case is “significant.” Id.
Cox presents another factor that he argues weighs towards a
finding of “extraordinary circumstances” that was not before
the Third Circuit when that court issued the aforementioned
guidance: the new ballistics report. Before considering the
Third Circuit's instructed factors, the court first analyzes the
importance of the new ballistics report as it is a prerequisite
to a complete discussion of the Cox II factors.

1. The New Ballistics Report as
an Extraordinary Circumstance
*7 Rather than providing a substantive ground for habeas
relief, Cox argues that the new ballistics report is an
extraordinary circumstance undermining the prosecution's
evidence, thereby permitting a merits consideration of his
defaulted IATC claims. Pet'r's Reply Supp. Mot. Relief Final
J. Pursuant
Fed. R. Civ. P. 60(b)(6) (“Pet'r's Reply”)
at 3, Doc. No. 110. The court cannot agree because (1)
his motion, to the extent it is based on the new ballistics
report, is a second or successive habeas corpus petition
requiring appellate authorization; (2) his motion, again to the
extent it is based on the new ballistics report, is untimely
whether construed under
Rules 60(b)(2) or 60(b)(6); and
(3) regardless of non-merits defects, the report does not
undermine Cox's conviction.

a. Second or Successive Petition

evidence presented in a Rule 60(b) motion, such as the new
ballistics report, constitutes a “claim” under Gonzalez. See
Blystone, 664 F.3d at 413 (“[A] motion that seeks to present
newly discovered evidence in support of a claim previously
Gonzalez, 545 U.S. at
denied presents a claim.” (citing
532) ); United States v. Jones, Crim. Action No. 06-367, 2015
Rule 60(b)
WL 525184, at *8 (E.D. Pa. Feb. 9, 2015) (“A
motion that brings a new claim for relief or new evidence in
support of a claim is in substance a successive habeas petition
and should be treated accordingly.” (citing
U.S. at 531) ).

Gonzalez, 545

Cox's own mismatched reasons for raising the ballistics
report further demonstrate that presentation of the report
constitutes a claim under Gonzalez. On the one hand, he
rejects the idea that the new ballistics report raises a new
claim, and reaffirms that he only raises procedurally defaulted
IATC claims in his
Rule 60(b)(6) motion. Pet'r's Reply
at 2–3. On the other hand, he calls the ballistics report
“an extraordinary circumstance that calls into question the
accuracy and reliability of the prosecution's evidence against
[him].” Id. at 3 (citing Cox I for its reliance on “ballistics
evidence presented at trial to conclude that Petitioner was
not prejudiced by trial counsel's deficient performance”).
Thus, according to Cox, for the report to have any bearing
on this court's determination as to whether extraordinary
circumstances exist, thereby permitting consideration of the
procedurally defaulted IATC claims, the court must first
determine whether the report does indeed “call[ ] into
question the accuracy and reliability of the prosecution's
evidence.”
Unfortunately, determining the accuracy and reliability of
the prosecution's evidence is a fundamentally merits-based
analysis and goes beyond the purview of a
Rule 60(b)(6)
motion, as delineated by Gonzalez. Cox fails to demonstrate
how the new ballistics report, unlike his Martinez claim,
has any bearing on the order from which he seeks relief,
at least to the extent that the order denied habeas relief on

App. 9
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Cox v. Horn, Not Reported in Fed. Supp. (2018)

procedural default grounds. Cox does not wield the new
ballistics report to attack “some defect in the integrity”
of that order's conclusion that all but one of his IATC
Gonzalez, 545 U.S.
claims were procedurally defaulted.
at 532. Instead, by his own admission, the new ballistics
report demonstrates flaws in trial evidence, and therefore
amounts to a claim under Gonzalez—i.e. “an asserted federal
basis for relief from a state court's judgment of conviction.”
Id. at 530. In other words, he “seek[s] to challenge the
underlying criminal proceedings and not this Court's decision
denying habeas relief. In this regard, the motion ... is properly
construed as a second or successive habeas petition.” Box v.
Petsock, Civ. Action No. 3:86-CV-1704, 2014 WL 4093248,
at *15 (M.D. Pa. Aug. 18, 2014) (holding that petitioner's
allegations of fraud perpetrated on state courts and claims
of new evidence, including alleged “sham” arrest warrant,
constituted second or successive petition, even though joined

conceivable disagreements with his conviction or collateral
Rule 60(b) attacks must be
proceedings. In short, Cox's
tailored to the order from which he seeks relief, and he has
not explained how the new ballistics report demonstrates
that this court erred in declining to review his procedurally
defaulted IATC claims. Therefore, his
Rule 60(b)(6)
motion for relief based on the new ballistics report is a
second or successive petition, and because he did not first
seek authorization from the Third Circuit, this court lacks
jurisdiction over that claim. 6
6

to
Rule 60(b) motion for relief based on Martinez as an
extraordinary circumstance).
*8 Cox's citation to Cox I only supports the conclusion
Rule 60(b) motion, to the extent it presents the
that his
new ballistics report, is a second or successive petition. He
cites that case to demonstrate that the new report undermines
the Third Circuit's reliance on purportedly outdated ballistics
evidence in its analysis of the one IATC claim considered on
its merits. But the ostensible purpose of Cox's
Rule 60(b)
(6) motion is not to relitigate the merits of his one IATC claim
that was not procedurally defaulted. Rather, he seeks a meritsbased consideration of IATC claims previously rejected for a
non-merits reason: procedural default. If Cox were to use the
new ballistics report to challenge his one IATC claim that was
not procedurally defaulted, that would constitute an attack
of “the federal court's previous resolution of a claim on the
merits.”
Gonzalez, 545 U.S. at 532 (emphasis in original).
Such a challenge would amount to a second or successive
petition.
Finally, the court does not interpret Cox II as an invitation
for Cox to present new evidence, new IATC claims, or
any other arguments irrelevant to the propriety of reopening
his procedurally defaulted claims—the narrow basis under
which the Third Circuit remanded to this court for review.
Rule 60(b)(6)’s requirement that the movant demonstrate
“extraordinary circumstances” in the habeas context does
not unlock for the court's consideration any of a petitioner's

Cox also urges the court to consider additional
IATC claims separate from those raised in
his federal habeas petition as extraordinary
circumstances that support Martinez relief: trial
counsel's failure to retain a ballistics expert, call
witnesses whose statements to police implicated
others in the crime, and cross-examine the Little
sisters on inconsistencies in their testimony. For
the same reasons that Cox's presentation of the
new ballistics report constitutes a second or
successive petition, these purported extraordinary
circumstances are also second or successive claims.

b. Timeliness of the New Ballistics Report
Gonzalez concerns aside, Cox's motion for relief based on
the new ballistics report is also untimely, whether the court
construes his motion as requesting relief under
(2) or 60(b)(6).
rule in turn.
7

7

Rule 60(b)

The court analyzes timeliness under each

Cox's
Rule 60(b)(6) motion is only untimely
to the extent it requests relief based on the
new ballistics report. As the Cox II court noted,
his
Rule 60(b)(6) motion is timely to the
extent it requests relief pursuant to Martinez and
consideration of his procedurally defaulted IATC
claims.

Cox II, 757 F.3d at 116.

i.

Rule 60(b)(2)

Rule 60(b)(2) permits relief from a final judgment, order,
or proceeding based on “newly discovered evidence that,

App. 10
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

Cox v. Horn, Not Reported in Fed. Supp. (2018)

with reasonable diligence, could not have been discovered
in time to move for a new trial under Rule 59(b) ....”
Fed. R. Civ. P. 60(b)(2). Under this Rule, “the phrase
newly discovered evidence refers to evidence of facts in
existence at the time of trial of which the aggrieved party

1

was excusably ignorant.”
United States v. 27.93 Acres
of Land, More or Less, Situate in Cumberland Cty., Com.
of Pa. Tract No. 364-07, 924 F.2d 506, 516 (3d Cir. 1991)
Rule 60(b)(2)
(internal brackets omitted). Relief under
and Rule 60(b)(6) is mutually exclusive; that is, if relief
is available under

i

Rule 60(b)(2), it is unavailable under

Rule 60(b)(6). See S.E.C. v. Fin. Warfare Club, Inc.,
425 F. App'x 85, 87 (3d Cir. 2011) (per curiam) (citing

1

Liljeberg v. Health Servs. Acquisition Corp., 486 U.S.

847, 864 (1988) ). Accordingly, “ Rule 60(b)(6) cannot be
used as a means by which the [one-year] time limitations
of 60(b)(1–3) may be circumvented.” Salley v. Dragovich,
594 F. App'x 56, 58 (3d Cir. 2014) (per curiam) (internal
quotation marks omitted). Thus, in Financial Warfare Club,

1

Inc., the Third Circuit foreclosed
Rule 60(b)(6) relief
because the appellant presented newly discovered evidence

d

that the appellee committed fraud, making
Rule 60(b)(2)
or (3) relief available. See 425 F. App'x at 87. This was so
even though the appellant did not specifically file his motion
for relief under

Rules 60(b)(2) or (3). See id. at 86–87.

*9 The Financial Warfare Club, Inc. logic and application
of precedent applies similarly to this case. By Cox's own
telling, the new ballistics report presents factual evidence
that existed at the time of trial in 1993 that he could
not discover with reasonable diligence, and for which he
was excusably ignorant, because the respondents always
maintained exclusive control of ballistics evidence:

Petitioner access to the ballistics
evidence. The grand reservoir of
equitable power to do justice in a
particular case under [R]ule 60(b)
counsels against now punishing Mr.
Cox for a delay that was of the
Respondent's making.

Pet'r's Reply at 4 (citation and quotation marks omitted).
Because the new ballistics report constitutes newly
discovered evidence,

Rule 60(b)(2) relief is available,

Rule 60(c)(1)’s one-year deadline. Judge Brody
subject to
denied Cox's petition for a writ of habeas corpus on August
11, 2004, and Cox did not file his motion for relief based on
the new ballistics evidence until August 5, 2013, far past the
one-year deadline. Therefore, Cox's motion for relief, to the
extent the new ballistics report is the basis for that relief, is
untimely.

ii.

Rule 60(b)(6)

Even if the court could consider Cox's motion under
Rule
60(b)(6), the result is no different because his lack of diligence
in seeking ballistics evidence belies his filing the motion
within a reasonable time. A

i

[T]he delay in bringing this motion is
the result of Respondent's exclusive
possession of the ballistics evidence
at issue. Respondent has always
maintained complete control of
the disputed ballistics evidence.
Respondent only re-analyzed the
evidence and produced a new
and materially different report after
Respondent was ordered to allow

Rule 60(b)(6) motion “must

be made within a reasonable time,”

1
i

Fed. R. Civ. P. 60(c)

(1), and, here, Cox did not move for
Rule 60(b)(6) relief
“within a reasonable time” because he did not diligently
seek ballistics evidence, contrary to his assertion above. The
Supreme Court of Pennsylvania considered this very issue
in 2016 upon review of Cox's PCRA petition based on the
new ballistics report. See Commonwealth v. Cox, 146 A.3d
221, 231 (Pa. 2016). Although that PCRA petition was based
on the Watson and Stewart murders, the Court's analysis is
relevant to the Davis murder as well:

[T]here is no question that Cox knew
that more testing could be performed
on the ballistics evidence at the
time of trial [for the Watson and
Stewart murders] in 1995. It was
not until six years later, in 2001,

App. 11
M'lfl1S3M

9

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Cox v. Horn, Not Reported in Fed. Supp. (2018)

that Cox first attempted to obtain the
ballistics evidence through his first
PCRA petition.... By raising this claim
in his first PCRA petition, Cox has
effectively conceded that the testing
could have been done at the time
of trial. Moreover, Cox admitted to
committing the Davis murder, and so
Cox always knew that more than one
firearm was used in the perpetration
of that crime. Nevertheless, Cox has
never explained why he did not seek
independent ballistics testing at the
time of trial or on direct appeal.
Importantly, our review of the record
reveals that Cox has never alleged
that he asked trial counsel to seek
independent ballistics testing or that
his counsel refused such a request.
Were that the situation, there could
be a basis upon which to conclude
that he attempted to act diligently,
but that his efforts were thwarted by
trial counsel. However, this is simply
not the case here. Cox acknowledges
that the testing could have been done
at the time of trial, but offers no
explanation as to why he did not seek
such testing at that time. Instead, he
took no action to obtain the additional
testing for six years.... It is this lengthy,
unexplained delay that defeats the
possibility of a conclusion that Cox
acted with reasonable effort to obtain
ballistics testing.... Cox's failure to act,
and failure to explain his lack of action,
precludes a finding of due diligence.

*10 Id. (citation omitted). The Court also clarified in a
footnote that

[t]here is no allegation here that a
newly developed technology or newly
discovered source led to the new fact.
Cox makes no claim that Officers
Walker and Cruz[, the examiners for
the new ballistics report,] employed

new testing methods or techniques, nor
does he claim that they tested anything
beyond what Officer O'Hara[, the
examiner for the old ballistics report,]
tested in connection with his report.
This further weakens any attempt
to claim that the fact was not
ascertainable prior to the issuance of
the second ballistics report.

Id. at 231 n.15. None of the relevant factors that the Court
discussed is materially different in this case. Moreover, the
Court's reasoning applies even more forcefully here because
the Davis murder trial occurred two years before the Watson
and Stewart murder trial. Therefore, eight years, rather than
six years, separate Cox's trial in this case and his first attempt
to obtain ballistics evidence in any of the three cases.
Cox's argument that the Commonwealth has always been in
sole possession of the ballistics evidence is only superficially
persuasive. As the Court discussed, Cox was admittedly
present for Davis's murder, and therefore, assuming the
accuracy of the new ballistics report's conclusion, he
has always known that the bullets recovered from Davis
originated from two (or more) guns. Despite that knowledge,
there is no evidence he insisted that his trial or PCRA counsel
pursue a theory based on multiple firearms, which surely
would have involved seeking another ballistics analysis.
Without such diligence, the court refuses to find that he filed
his Rule 60(b)(6) motion based on the new ballistics report
within a reasonable time.

c. Whether the New Ballistics
Report's Conclusion is Extraordinary
Even disregarding Gonzalez, timeliness, and diligence
concerns, the new ballistics report does not undermine
the reliability of Cox's conviction because he admitted to
firing two shoots that were almost certainly not accidental.
Therefore, the report is not an extraordinary circumstance.
Most importantly, while the new ballistics report, if accurate,
undermines the conclusion that Cox was the only shooter, it
does not undermine the conclusion that he nevertheless shot
intentionally. Regardless of whether the bullets recovered
from Davis originated from one or two guns, Cox admitted to

App. 12
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Cox v. Horn, Not Reported in Fed. Supp. (2018)

firing two shots in his statement. Because at least three bullets
struck Davis, the new ballistics report is still consistent with
Cox firing two shots with at least one other shot originating
from a different shooter. Concededly, Cox firing only two
shots is more suggestive of an accident than firing three or
more shots. But only marginally so: The ballistics expert
testified that two shots were sufficient to all but negate the
possibility of an accident. Specifically, the ballistics expert
at trial testified that two or more shots required the shooter
to cock the hammer and/or pull a double action trigger
for each shot. The ballistics expert also testified that these
actions between each shot were especially necessary given the
likelihood that the bullets recovered from Davis originated
from a revolver. Thus, even if Cox only fired twice, instead
of three or more times, he still would have had to undertake
the intentional action of preparing the gun for the second
shot. The combination of these three pieces of evidence—
Cox's admission, evidence that at least three bullets struck
Davis, and the ballistics testimony—demonstrate the extreme
unlikelihood that Cox accidentally shot Davis.
*11 According to Cox, as a result of the new ballistics
report, his “partially-inculpatory statement is called into
doubt and the portion of his statement explaining that the
shooting was accidental is supported.” Pet'r's Reply at 9. The
court disagrees for several reasons, each contributing to the
court's conclusion that the new ballistics report is not an
extraordinary circumstance. First, the new ballistics report
does not impeach the medical examiner's testimony that Davis
had four wounds caused by at least three bullets. Therefore,
assuming arguendo that the conclusion of the new ballistics
report is correct, the report is consistent with Cox's admission
that he fired two shots, and that there was at least one shot
from a different firearm. Second, he never explains why
he should not be held responsible for his own admission,
given that the new report is consistent with two (or more)
shots originating from his own firearm. 8 Third, it is unclear
whether Cox even argued the shooting was an accident in his
admission. In recollecting the moment of the shooting, the
only indication of an accident is his reference to Lee handing
him a cocked gun, after which he twice states that he fired
two shots. But as explained, even if Lee handed him a cocked
gun, Cox would have still had to cock the gun for the second
shot. Outside of that moment, Cox only states that he told his
family he shot someone accidentally and quotes Lee stating
that the police would not look at the shooting as an accident.
8

Before trial, Cox moved to suppress his statement
based on a purported unawareness that he could

face the death penalty for confessing—not, for
example, involuntariness or coercion. In denying
the motion, the trial judge, finding that the
statement was not involuntary, explained, “I
find there's absolutely no evidence nor has the
defendant presented any argument on the issue of
psychological coercion.” Trial Tr. Oct. 27, 1993, at
63.
Fourth, to the extent the new ballistics report demonstrates
that Cox's statement omitted a complete description of Davis's
death, Cox alone is responsible for that omission, further
undermining his attempt to paint the shooting as an accident.
Cox was present at the time of Davis's shooting, and the
medical examiner testified that all bullets entered from
the same approximate angle. Cox would therefore know if
somebody else fired shots. Nevertheless, he never suggested
the involvement of a second shooter. Assuming the accuracy
of the new report, the court is unwilling to find credible
Cox's claims of accident thereby rewarding him for hiding
the full truth of the shooting. And finally, Cox ignores the
fact that the first ballistics report was merely inconclusive as
to whether the bullets recovered from Davis originated from
the same firearm. Thus, Cox's conviction was not necessarily
premised upon him firing all shots, belying his argument that
the new report is a game-changer that materially strengthens
his assertion that he shot accidentally.
Cox is correct that the new report offers a different
interpretation of the proceedings and evidence at trial, as well
as collateral proceedings. For example, the court agrees with
Cox that the report “places both the prosecution and defense
theories in a different light.” “Pet'r's Suppl. Mem.” at 10, 13
(citing Trial Tr. Oct. 28, 1993, at 116 (reciting trial counsel's
statement during closing that “I don't know that we could
say firing a gun three times ... would be consistent with an
accident”), 124 (reciting prosecutor's closing statement that
trial “[c]ounsel has conceded ... there is one shooter and that
shooter is the defendant, and that defendant is responsible
for all the bullets that entered the body of the deceased”) ).
Additionally, both the 2003 R & R and Cox I do not appear
to contemplate the possibility of a second firearm or shooter
in determining that trial counsel's deficient performance did
not prejudice Cox. For example, Magistrate Judge Jacob Hart
wrote in the 2003 R & R, “Since Dr. Lieberman concluded
that the wounds were caused by at least three bullets, even if
the weapon was cocked when Cox got it, he would have had
to cock the weapon two other times to fire three shots.” R &
R at 19, Doc. No. 31. Likewise, the Cox I court explained:

App. 13
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

Cox v. Horn, Not Reported in Fed. Supp. (2018)

According to Cox, the Superior
Court disregarded the importance
of Kimberly Little's testimony to
the prosecution's case and gave
too much weight to other, wholly
circumstantial, evidence presented at
trial. However, even without Kimberly
Little's testimony, the verdict was
supported by circumstantial evidence.
For example, Cox admitted to police
that he shot the victim from a distance
of two feet, and the victim sustained
three gun shot wounds to vital parts
of the body, specifically the neck and
chest. In addition, the ballistics expert
explained that the likelihood of an
accidental shooting was diminished by
the number of shots fired. It is true that
the ballistics expert testified that he
could not exclude the possibility of an
accidental shooting without examining
the weapon; nonetheless, the expert's
testimony about the likelihood of an
accidental shooting weighs against
Cox's claim that he shot the victim
accidentally.

*12 174 F. App'x at 88. And finally, the report's conclusion
contradicts Kimberly Little's eyewitness testimony which
omits any reference to a second shooter or firearm.
Even if the new ballistics report offers this new interpretation
of trial and collateral proceedings, it does not necessarily
follow that the outcome of those proceedings is faulty. First,
closing statements suggesting that Cox fired three shots and
fired them alone are immaterial because, as explained above,
the admitted two shots sufficiently established intent, and
the presence of a second shooter is irrelevant to that intent.
And again, these arguments ignore the fact that the first
ballistics report was only inconclusive as to whether both
bullets originated from the same gun. Second, although Judge
Hart relied on Cox having to cock the gun two other times
to establish that trial counsel's deficient performance did
not prejudice Cox, just one cock of the gun demonstrates
the same point with near equal force, as explained by the
ballistics expert. The same goes for the Cox I reasoning: One

fewer shot than that presumed by the court still demonstrates
Cox's intent because he still had to cock the gun for the
second shot to which he confessed. Lastly, although the new
ballistics report's conclusion contradicts Kimberly Little's
account of the shooting, her testimony is unnecessary to
maintain confidence in the outcome of Cox's trial, as the Third
Circuit determined, even assuming Cox fired only two shots
rather than three or more.
In all, even overlooking Cox's improper presentation of
the new ballistics report in a
Rule 60(b)(6) motion
and the untimeliness of the motion, the report is not an
extraordinary circumstance because (1) the existing evidence
—Cox's admission that he shot twice, medical testimony that
at least three bullets struck Davis, and ballistics testimony that
shooting twice all but forecloses an accident—sufficiently
justifies his conviction; (2) Cox fails to explain why he is
not responsible for his own inculpatory statement that he shot
twice, how his original statement demonstrates he thought the
shooting was an accident, why he has kept silent about the
possibility of a second shooter despite his presence during
the shooting, and why the new report materially changes
the integrity of the trial when the ballistics evidence at trial
was merely inconclusive as to the number of firearms; and
(3) although Cox is correct that the new report undercuts
presuppositions during and after trial that he was responsible
for all shots, the new report nevertheless does not undercut
the outcomes of trial and collateral proceedings.

2. Merit and Substantiality of the
Procedurally Defaulted IATC Claims
Because the Martinez exception to procedural default requires
a “substantial” underlying IATC claim, the Cox II court
permitted an assessment of the merits of Cox's defaulted
IATC claims on remand. The defaulted IATC claims are
four-fold: (1) failure to introduce evidence that the Little
sisters were related to Davis; (2) failure to impeach Kimberly
Little with prior inconsistent statements; (3) failure to refute
the Commonwealth's assertion that Cox worked as a drug
lookout; and (4) failure to present an adequate defense to firstdegree murder and properly advise Cox of his right to testify.
See R & R at 3, 9–13; Pet'r's Suppl. Mem. at 14. The court
discusses the merit of each in turn and finds that Cox fails to
prove any of his IATC claims.

App. 14
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

Cox v. Horn, Not Reported in Fed. Supp. (2018)

a. Failure to Introduce Evidence that
the Little Sisters were Related to Davis
*13 Cox argues that trial counsel possessed a statement from
Mary Little's husband, Keith Harris (“Harris”), indicating that
Harris was Davis's cousin by marriage, thereby making the
Little sisters cousins of Davis; however, trial counsel failed
to question the biases of the Littles based on that familial
relationship. Pet'r's Suppl. Mem. at 19. The court disagrees
that trial counsel's performance was deficient or that the
alleged deficiency prejudices Cox.
Under the first part of the Strickland test, trial counsel's
performance was not deficient because Harris's statement is
ambiguous as to the familial relationship between Davis and
the Littles. Harris stated he was related to Davis as a “cousin
by marriage.” Pet'r's Suppl. Mem., Ex. B at 2, Doc. No. 95-2.
As the respondents argue, while the Littles may be cousins of
Davis, Davis may also have been married to Harris's cousin.
Resp. Suppl. Mem. Supp. Pet'r's Mot. Relief Final J. Pursuant
Fed. R. Civ. P. 60(b)(6) (“Resp't's Resp.”) at 28, Doc. No.
105. Cox fails to respond with any evidence of a relevant
familial relationship, and without clarity on that question,
trial counsel's performance did not fall below an objective
standard of reasonableness.
Nor would any deficiency be prejudicial, under the second
part of the Strickland test. As the Third Circuit explained
in Cox I, sufficient evidence outside of the Little sisters'
testimony existed to convict Cox, and as explained above,
even if considering the new ballistics report is proper,
the report does not materially alter the Cox I reasoning.
Therefore, there is not a reasonable probability that trial
counsel's failure to elicit testimony from the Littles on a
possible familial relationship to Davis prejudiced Cox.

b. Failure to Impeach Kimberly Little
with Prior Inconsistent Statements
Cox alleges that trial counsel failed to highlight two prior
inconsistent statements of Kimberly Little. First, Cox argues
that a passage in Harris's statement demonstrates that
Kimberly Little did not see the shooting, contrary to her
testimony that she witnessed the shooting from her apartment
window. Pet'r's Suppl. Mem. at 18; Pet'r's Reply at 14. The
complete relevant portion of Harris's statement is as follows:

Q. Did anyone else tell you that they had seen the shooting?
A. Kim said that she was ac[ ]ross the street and after she
heard the shots she went to the corner and seen them ...
pulling off.”
Q. Anyone else?
A. That was it.
Pet'r's Suppl. Mem., Ex. B at 3–4. According to Cox,

[t]he key part of this statement ... is
that Ms. Little did not see the incident.
Instead, she only heard the shots.
Moreover, Mr. Harris stated that he
was in the apartment building, where
both he and Ms. Little lived, when
the shooting happened. There is a
reasonable inference that Mr. Harris
would not have said his sister-in-law
was “across the street” if she was
inside the apartment building that they
both lived in. By calling Mr. Harris as
a witness, counsel could have proved
that Kimberly Little was not where
she claimed to be when the shooting
occurred and did not see Petitioner
shoot anyone.

Pet'r's Reply at 14 (emphasis in original).
Cox's argument takes advantage of two ambiguities in
Harris's statement. First, while Harris's answer responds to
the question of whether anyone else told him that they had
“seen the shooting,” suggesting that Kimberly Little saw the
shooting, he also says that she had “seen them” “after she
heard the shots,” suggesting that the first time that she saw the
perpetrators was after the shooting. Second, although Harris
and Kimberly Little lived in the same building, and Kimberly
Little testified that she viewed the shooting from her building,
he said she was “across the street” at the time of the shooting,
which could either mean she was across the street from Harris,
an inconsistency, or across the street from the shooting, a
consistency.

App. 15
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

Cox v. Horn, Not Reported in Fed. Supp. (2018)

*14 While neither interpretation of Harris's statement
strikes the court as more likely than the other, effective
counsel would have nonetheless further investigated Harris's
meaning. However, Cox does not allege a failure to
investigate; rather, from this sole ambiguous statement, he
faults trial counsel for failing to use the statement to impeach
Kimberly Little at trial. Without more evidence of deficiency
—for example, that trial counsel failed to use the statement
either after neglecting to investigate or after an investigation
affirmed Cox's interpretation of Harris's statement—the court
cannot find that trial counsel's failure to impeach Kimberly
Little with Harris's statement was objectively unsound trial
strategy.
The second inconsistency Cox alleges is as follows: Kimberly
Little told police that she had known Cox for a week, and
yet she testified that he was a lookout for a drug operation
that was open every day except Sunday. Pet'r's Suppl. Mem.
at 18. Additionally, trial counsel failed to question Little
about the source of her drug operation information. Neither
alleged failure demonstrates that trial counsel's representation
fell below an objective standard of reasonableness. Kimberly
Little's familiarity with the weekly schedule of a local
drug operation is consistent with only knowing one of the
drug operation's participants for one week. Additionally,
questioning Little about the source of her information may
have only elicited further unfavorable testimony about Cox's
involvement. Therefore, Cox cannot overcome the strong
presumption that trial counsel's omissions during his crossexamination of Kimberly Little were sound trial strategy. Trial
counsel's performance was not deficient on either alleged
prior inconsistent statement.
As for the prejudice prong of Strickland, because Cox argues
in this IATC claim that trial counsel missed an opportunity
to impeach Kimberly Little, the same analysis from the first
claim applies: Kimberly Little's testimony was unnecessary
to support Cox's conviction, and therefore, the failure to
impeach her did not prejudice him.

c. Failure to Refute the Commonwealth's
Assertion that Cox Worked as a Drug Lookout
In his third defaulted IATC claim, Cox argues that trial
counsel failed to conduct an adequate investigation and
interview and produce exculpatory witnesses to defend
him from the accusation that he worked as a drug
lookout. For example, trial counsel had an available witness

willing to testify about Cox's lawful employment. Under
the first prong of Strickland, evidence of Cox's lawful
employment is of marginal probative value because lawful
and unlawful employment are not mutually exclusive. That
probative value is small enough that it was not objectively
unreasonable for trial counsel to decline to elicit testimony
of lawful employment. It is true that trial counsel “wasn't
really ... anticipating” that the Commonwealth would produce
testimony from Kimberly Little as to Cox's drug work. Trial
Tr. Oct. 28, 1993, at 5. However, Cox fails to offer any
specifics, other than evidence of lawful employment, as to
what trial counsel should have done differently at trial to
contradict Kimberly Little's testimony of Cox's work as a drug
lookout. Therefore, Cox has failed to demonstrate that trial
counsel's performance was deficient on this issue.
Turning to the prejudice prong of Strickland, evidence
that Cox worked as a drug lookout was unnecessary for
the reasons discussed in the above analysis of the new
ballistics evidence. Regardless of his alleged work as a drug
lookout, Cox confessed to shooting Davis twice, the ballistics
examiner testified as to the extreme unlikelihood that two
shots could be accidental, and the medical examiner testified
that Davis died from at least three gunshot wounds. Therefore,
trial counsel's failure to refute the assertion that Cox worked
as a drug lookout did not prejudice him.

d. Failure to Present an Adequate Defense to First-Degree
Murder and Properly Advise Cox of His Right to Testify
*15 On the final procedurally defaulted IATC claim, Cox
argues that trial counsel failed to (1) present any evidence
that he shot accidentally and (2) properly advise him of his
right to testify. As to the first alleged deficiency, trial counsel
proceeded at trial under a theory that Cox had “buckshot
fever,” 9 and Cox repeatedly criticizes this decision in his
submissions. See, e.g., Pet'r's Suppl. Mem. at 2, 16 (referring
to theory as “ill-conceived” and “irrational”). The court
sees this IATC claim differently: Trial counsel pursued the
buckshot fever theory because Cox's inculpatory admission
that he shot twice left him without winning options. While
admittedly lacking in plausibility, the buckshot fever theory
provided a tidy explanation for how Cox could have fired two
or more shots without the intent to kill. Once again, Cox does
not specify which theory trial counsel should have instead
pursued, which arguably further demonstrates the difficulty
of framing two or more shots as an accident.

App. 16
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

Cox v. Horn, Not Reported in Fed. Supp. (2018)

9

As described by trial counsel, buckshot fever is
“a collective term describing various individual
incidents of strange and relatively unexplainable
behavior ... in hunters, shooting into the ground,
shooting more shots than they ever realized, having
an empty weapon, [and] thinking they only shot
once ... [.]” Trial Tr. Oct. 28, 1993, at 65.

Worse, and turning to the second alleged deficiency, Cox's
only support for the argument that trial counsel failed to
properly advise him of his right to testify is a misleadingly
decontextualized quote from trial counsel during a PCRA
hearing. Cox argues:
At the PCRA hearing, trial counsel testified that “there
were many factors that led me to believe [the statement]
could have been coerced.” NT 2/04/98 at 5. Given counsel's
admission that he did not believe the statement, he was
ineffective for failing to advise Mr. Cox of his right to
testify ....
Pet'r's Reply at 17 (alteration in original). In fact, trial
counsel's fully contextualized quote from the PCRA hearing
is as follows:
Q. Would you agree that Mr. Cox's statement, in your view,
did not make out first degree murder?
A. That's correct. I knew the Commonwealth would be
using his statement, and I did not attempt to suppress it.
First of all, it was not suppressible in the sense that there
were many factors that led me to believe it could have been
coerced, but having the statement in, knowing full well
that the statement was going to be brought into evidence,
my strategy was to attempt to use the good points of that
statement to greatest advantage.
Hr'g Tr., Feb. 4, 1998, at 6. In other words, trial counsel's
testimony was the opposite of that suggested by Cox,
which deflates any argument that trial counsel should have
encouraged him to testify to combat a coerced statement.
Therefore, Cox has failed to prove that trial counsel's firstdegree murder defense and right-to-testify advisement were
deficient.
On this claim, the court declines to consider the prejudice
prong of Strickland because Cox fails to offer alternatives
to trial counsel's strategy that would permit the court to
contemplate the consequences of those alternatives. See

court deciding an ineffective assistance claim to ... address
both components of the inquiry if the defendant makes an
insufficient showing on one.”).

e. Cumulative Effect and Consequence
of Unsuccessful Claims under Martinez
Because Cox has failed to demonstrate that any of his
claims are meritorious, the aggregate of his claims do not
amount to a more favorable outcome. Additionally, to round
out the application of Cox's case to the Martinez rule, the
fact that his defaulted IATC claims are not meritorious, let
alone “substantial,” PCRA counsel was not deficient for
abandoning those claims; nor did the abandonment prejudice
Cox. Because Martinez served as the foundation of Cox's
argument for relief, the rejection of his defaulted IATC
claims is sufficient to dispose of his Rule 60(b)(6) motion.
Nevertheless, the court completes its analysis by discussing
the remaining Cox II considerations and any additional factors
that Cox presents.

3. Rarity of
Rule 60(b)(6) Relief
and Principles of Comity and Finality
*16 The rarity of Rule 60(b)(6) relief, comity, and finality
all weigh against finding that extraordinary circumstances
exist here, such that without relief, Cox would suffer an
extreme and unexpected hardship. Given the lack of merit of
his defaulted IATC claims and the fact that Martinez alone
does not constitute extraordinary circumstances, granting
Cox's motion would conflict with mandatory authority
requiring only rare grants of
Rule 60(b)(6) relief.
Principles of comity and finality also weigh against granting
relief because the state court convicted Cox 25 years ago,
and, as the Cox II court indicated, the district court initially
dismissed his federal habeas petition in 2004, 14 years ago
and eight years before Martinez. Therefore, considerations of
repose and finality, which strengthen over time, weigh against
granting Cox relief.

4. Cox's Diligence in Pursuing
His Defaulted IATC Claims

Strickland, 466 U.S. at 697 (“[T]here is no reason for a

App. 17
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

15

Cox v. Horn, Not Reported in Fed. Supp. (2018)

Unlike the previous discussion of Cox's diligence in pursuing
ballistics evidence, the focus here is on Cox's diligence
in pursuing review of his defaulted IATC claims. Cox
summarizes his long-running pursuit of the defaulted IATC
claims as follows:

[Cox] initially raised these claims in a
pro se Allocatur Petition filed on June
30, 1995. After allocatur was denied,
Petitioner raised the claims in a pro
se PCRA petition. At the evidentiary
hearing, Mr. Cox did not consent
to waive the claims that his postconviction counsel abandoned. In fact,
he submitted a second pro se PCRA
petition to raise these claims after the
first PCRA petition was denied. In
sum, Mr. Cox tried unsuccessfully to
present the claims in a pro se petition
for allowance of appeal in his direct
appeal, in a counseled PCRA petition,
and in a pro se PCRA petition.

Pet'r's Suppl. Mem. at 23. The respondents appear to concede
that Cox has diligently pursued his procedurally defaulted
IATC claims. See Resp't's Resp. at 32 (listing defaulted claims
and acknowledging that “petitioner was diligent in pursuing
these claims”). The court agrees that Cox has diligently
pursued his defaulted IATC claims, and his diligence would
weigh towards granting relief if the underlying claims had
substantial merit.

5. Cox's Conviction Serving as an Aggravating
Factor Towards His Death Sentence
More than any other consideration, the fact that Cox's
conviction in the Davis murder case contributed towards
his death sentence in the Stewart murder case weighs
towards finding that extraordinary circumstances exist to
permit Martinez relief. While the Cox II court thought the
capital aspect of this case is “significant,” the court refrained
from circumscribing the extent to which this court should

(6) analysis”). In this court's judgment, if a defaulted IATC
claim is both meritorious and substantial, and PCRA counsel
was ineffective in abandoning that claim, as required by
Martinez, a death sentence may very well tip the balance
of equitable factors towards granting relief. This is because
limiting Rule 60(b)(6) Martinez relief to cases implicating
the death penalty ensures that such relief will be, as required
by that Rule, rare and based on extraordinary circumstances,
given that the penalty is “the most severe sanction available
to society.”
Saffle v. Parks, 494 U.S. 484, 514 (1990).
But this is not that case. It is this court's “duty to search for
constitutional error with painstaking care ... in a capital case,”
but the court has found none rooted in Cox's Martinez claim.
Burger v. Kemp, 483 U.S. 776, 785 (1987).

III. CONCLUSION
To summarize, Cox filed two
Rule 60(b)(6) motions for
this court's consideration, which collectively request relief
based on the new rule of law articulated by Martinez.
Consideration of the new ballistics report, which concluded
that the two bullets recovered from Davis originated from
different firearms, at this stage is improper. Cox's presentation
of the new ballistics report constitutes a claim, requiring
appellate authorization of his second or successive petition.
His presentation of the report is also untimely under either
Rule 60(b)(2) or 60(b)(6). Out of an abundance of caution,
the court nevertheless considered in the alternative the merits
of the ballistics evidence. In short, the new ballistics report
does not materially undermine Cox's conviction because
he admitted to shooting Davis twice, and, according to
unimpeached ballistics testimony from trial, the possibility
that Cox fired twice accidentally is remote. Whether
considered with or without the aid of the new ballistics report,
none of Cox's procedurally defaulted IATC claims have merit
on either element of the Strickland test. And although Cox's
diligence and his death sentence weigh towards granting
relief, such relief must be rooted in substantially meritorious,
procedurally defaulted IATC claims. Accordingly, the court
denies Cox's two

Rule 60(b)(6) motions.

*17 A separate order follows.

weigh Cox's death sentence. See
Cox II, 757 F.3d at
124, 126 (remanding for a determination of “how, if at all,
the capital aspect of this case ... figure[s] into [a] 60(b)

App. 18
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

16

Cox v. Horn, Not Reported in Fed. Supp. (2018)

All Citations
Not Reported in Fed. Supp., 2018 WL 4094963
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. 19
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

17

Cox v. Horn, 757 F.3d 113 (2014)
89 Fed.R.Serv.3d 73

Court of Appeals reviews for abuse of discretion
district court's denial of motion for relief from

757 F.3d 113
United States Court of Appeals,
Third Circuit.
Jermont COX, Appellant
v.
Martin HORN; Connor Blaine; The District
Attorney of the County of Philadelphia; The
Attorney General of the State of Pennsylvania.

Fed.Rules Civ.Proc.Rule 60(b)(6),
judgment.
28 U.S.C.A.
48 Cases that cite this headnote
[2]

Cause and prejudice in

Habeas petitioner may obtain federal review of
procedurally defaulted claim if he demonstrates
cause for default and prejudice arising from
violation of federal law.

No. 13–2982.
|
Argued: June 12, 2014.
|
Opinion Filed: Aug. 7, 2014.
Synopsis
Background: Following affirmance of his convictions for
first-degree murder, criminal conspiracy, and possession

Habeas Corpus
general

36 Cases that cite this headnote
[3]

Habeas Corpus
counsel

Ineffectiveness or want of

Where state law requires prisoner to raise
claims of ineffective assistance of trial counsel
in collateral proceeding, rather than on direct
review, procedural default of those claims will
not bar their review by federal habeas court if
(1) default was caused by ineffective assistance
of post-conviction counsel or absence of counsel
(2) in initial-review collateral proceeding (i.e.,
first collateral proceeding in which claim could
be heard), and (3) underlying claim of trial
counsel ineffectiveness is “substantial,” meaning
claim has some merit, analogous to substantiality
requirement for certificate of appealability.
U.S.C.A. Const.Amend. 6.

of instrument of crime,
445 Pa.Super. 624, 664 A.2d
1054, state inmate filed petition for writ of habeas corpus.
The United States District Court for the Eastern District
of Pennsylvania, Anita B. Brody, J., denied petition, and
petitioner appealed. The Court of Appeals, 174 Fed.Appx.
84, affirmed. The United States District Court for the
Eastern District of Pennsylvania, Anita B. Brody, J., denied
petitioner's motion for relief from judgment, and petitioner
appealed.

[Holding:] The Court of Appeals, Barry, Circuit Judge, held
that district court abused its discretion in failing to consider
how, if at all, capital aspect of petitioner's case or any other
factor would figure into its analysis.

157 Cases that cite this headnote
[4]

Vacated and remanded.

Federal Civil Procedure
Extraordinary
remedy; motion not favored

Procedural Posture(s): On Appeal.

Federal Civil Procedure
presumptions

Burden of proof;

West Headnotes (8)

Party seeking relief from final judgment bears
burden of establishing entitlement to equitable
relief, which will be granted only under

[1]

extraordinary circumstances.
Fed.Rules
Civ.Proc.Rule 60(b)(6), 28 U.S.C.A.

Federal Courts
Altering, amending,
modifying, or vacating judgment or order;
proceedings after judgment

97 Cases that cite this headnote

App. 20
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Cox v. Horn, 757 F.3d 113 (2014)
89 Fed.R.Serv.3d 73

[5]

Federal Civil Procedure
facts in general

Change in law or

[8]

Where movant has not exhausted available
avenues of review, court may deny relief from

Change in decisional law, even in habeas context,
may be adequate, either standing alone or in
tandem with other factors, to invoke relief from

final judgment.
Fed.Rules Civ.Proc.Rule
60(b)(6), 28 U.S.C.A.

16 Cases that cite this headnote

20 Cases that cite this headnote

Attorneys and Law Firms

Habeas Corpus
Relief from judgment;
revocation or modification
District court abused its discretion, in denying
petitioner's motion for relief from judgment
dismissing his habeas petition on basis
of Supreme Court's subsequent decision in
Martinez v. Ryan, which permitted postconviction counsel's failure to raise ineffective
assistance of trial counsel claims to excuse
procedural default of those claims in some
circumstances, in failing to consider how, if at
all, capital aspect of petitioner's case or any other
factor highlighted by parties would figure into
its analysis. U.S.C.A. Const.Amend. 6;

106 Cases that cite this headnote
Habeas Corpus
Relief from judgment;
revocation or modification
Jurisprudential change rendered by Supreme
Court's decision in Martinez v. Ryan, which
permitted post-conviction counsel's failure to
raise ineffective assistance of trial counsel claims
to excuse procedural default of those claims
in some circumstances, without more, does not
entitle habeas petitioner to relief from final
judgment dismissing his petition.
Fed.Rules
Civ.Proc.Rule 60(b)(6), 28 U.S.C.A.
137 Cases that cite this headnote

*115 Stuart B. Lev, Esq. (argued), Federal Community
Defender Office for the Eastern District of Pennsylvania,
Philadelphia, PA, for Appellant.
Molly S. Lorber, Esq. (argued), Thomas W. Dolgenos, Esq.,
Helen Kane, Esq., Philadelphia County Office of District
Attorney, Philadelphia, PA, for Appellees.
Before: AMBRO and BARRY, Circuit Judges, and
RESTANI, * Judge.
*

Honorable Jane A. Restani, Judge, United States
Court of International Trade, sitting by designation.

28

U.S.C.A. § 2254;
Fed.Rules Civ.Proc.Rule
60(b)(6), 28 U.S.C.A.

[7]

Grounds and

Habeas Corpus
Relief from judgment;
revocation or modification

final judgment.
Fed.Rules Civ.Proc.Rule
60(b)(6), 28 U.S.C.A.

[6]

Federal Civil Procedure
Factors

OPINION OF THE COURT
BARRY, Circuit Judge.
More than twenty years ago, Jermont Cox was convicted in
the Court of Common Pleas of Philadelphia County of firstdegree murder and related charges. In 2000, he filed a petition
in the U.S. District Court for a writ of habeas corpus. The
District Court dismissed the petition in 2004, finding that
all but one of Cox's claims were procedurally defaulted due
to counsel's failure to pursue them in Cox's initial-review
post-conviction proceeding in state court and that the one
preserved claim lacked merit. We affirmed. In 2012, the
Supreme Court of the United States decided
Martinez v.
Ryan, –––U.S. ––––, 132 S.Ct. 1309, 182 L.Ed.2d 272 (2012),
which announced an exception to longstanding precedent and
found that, under certain circumstances, and for purposes
of habeas review, post-conviction counsel's failure to raise
ineffective assistance of trial counsel claims could excuse
a procedural default of those claims. Within three months

App. 21
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Cox v. Horn, 757 F.3d 113 (2014)
89 Fed.R.Serv.3d 73

t

of that decision, Cox filed a motion under
Rule 60(b)(6)
of the Federal Rules of Civil Procedure for relief from the
2004 order dismissing his habeas petition. The District Court
denied the motion, finding that the intervening change in
law occasioned by Martinez, “without more,” did not provide
cause for relief.
We agree that, for relief to be granted under
Rule 60(b)
(6), “more” than the concededly important change of law
wrought by Martinez is required—indeed, much “more”
is required. Ultimately, as with any motion for 60(b)(6)
relief, what must be shown are “extraordinary circumstances
where, without such relief, an extreme and unexpected
hardship would occur.”

Sawka v. Healtheast, Inc., 989

F.2d 138, 140 (3d Cir.1993); accord
Budget Blinds, Inc.
v. White, 536 F.3d 244, 255 (3d Cir.2008). But what those
extraordinary circumstances would—or could—be in the
context of Martinez was neither offered to the District Court
by the parties nor discussed by the Court, although, to be sure,
at that point there had been little post-Martinez case law to
inform any such discussion.
We will vacate the order of the District Court and remand to
provide the Court the opportunity to consider Cox's
Rule
60(b)(6) motion with the benefit of whatever guidance it may
glean from this Opinion and from any additional briefing
it may order. We note at the outset that one of the critical
factors in the equitable and case-dependent nature of the
60(b)(6) analysis on which we now embark is whether the
60(b)(6) motion under review was *116 brought within a
reasonable time of the Martinez decision. See Fed.R.Civ.P.
60(c)(1). It is not disputed that the timing of the 60(b)(6)
motion before us—filed, as it was, roughly ninety days after
Martinez—is close enough to that decision to be deemed
reasonable. Still, though not an issue before us, it is important
that we acknowledge—and, indeed, we warn—that, unless a
petitioner's motion for 60(b)(6) relief based on Martinez was
brought within a reasonable time of that decision, the motion
will fail.

I. PROCEDURAL HISTORY
Recognizing that more than twenty years of procedural
history has brought us to this point, it is, nonetheless,
important that that history be recounted. We will attempt to
be succinct, if not laserlike, in our recitation.

On October 28, 1993, following a bench trial before the
Hon. Carolyn Engel Temin of the Court of Common Pleas
of Philadelphia County, Cox was convicted of first-degree
murder, criminal conspiracy, and possession of an instrument
of crime in connection with the July 19, 1992 shooting death
of Lawrence Davis, and was sentenced to life imprisonment.
In a statement he gave to the police at the time of his
arrest, Cox confessed to shooting Davis, but said that the
shooting had been accidental. He and a friend, Larry Lee,
he said, had gone to a drug house operated by Lee. While
they were outside drinking, Lee got into a dispute with Davis
that escalated into a physical altercation. At some point, Lee
handed Cox a gun that was already cocked. Cox shot twice,
hitting Davis, and then handed the gun back to Lee. According
to Cox, he later told family members that the shooting had
been an accident.
To prove at trial that Cox had the requisite intent for firstdegree murder, the Commonwealth presented the testimony
of Kimberly Little, an eyewitness. Little testified that Cox
and Lee worked for a drug organization that was run out of
an apartment in her building: Cox was a “lookout” and Lee
supplied the operation's drugs. (A.31.) On the night of Davis'
death, Little saw from her window an argument erupt between
Davis and Lee. According to Little, Cox then exited a local
bar with a six-pack of beer, approached the two men, placed
the six-pack on the hood of Lee's nearby car, retrieved a gun
from the car, walked to within four feet of Davis, and shot
him three times. Cox stopped to drink a beer, and he and Lee
left in Lee's car.
The Commonwealth's other witnesses were Kimberly Little's
sister, Mary Little; the medical examiner; and a ballistics
expert. Mary Little confirmed that Cox and Lee were
neighborhood drug dealers and that she saw them drive off
together after the shooting. The medical examiner asserted
that Davis had four wounds caused by at least three bullets,
and the ballistics expert explained that it was unlikely the
shooting was accidental given the number of shots fired.
Trial counsel filed post-verdict motions on Cox's behalf.
Cox also filed a motion pro se alleging trial counsel's
ineffectiveness and requesting the appointment of new
counsel. In February of 1994, Judge Temin held a hearing
on the post-verdict motions. At the hearing, Cox testified
in support of his pro se motion and outlined trial counsel's
alleged failings: trial counsel (1) failed to present testimony

App. 22
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Cox v. Horn, 757 F.3d 113 (2014)
89 Fed.R.Serv.3d 73

from various character witnesses; (2) failed to find a witness,
identified by Cox, who would have testified that “guys
from the neighborhood” forced Kimberly Little to give a
false statement to the police, (S.A.47); (3) failed to review
paperwork *117 that Cox provided him; and (4) dissuaded
Cox from taking the stand in his own defense. In response,
trial counsel stated that he found himself in “a very untenable
position” and asked that he be permitted to withdraw.
(S.A.59.) Judge Temin denied the request as well as the pro se
motion, finding Cox's claims of ineffectiveness to lack merit.
She later denied the counseled post-verdict motions.
Cox, still represented by trial counsel, appealed his
conviction, challenging the sufficiency of the evidence and
the admission of evidence relating to uncharged drug activity.
In June of 1995, the Pennsylvania Superior Court affirmed
the judgment of sentence. Cox then filed a pro se petition for
allocatur in the Pennsylvania Supreme Court, raising claims
of trial counsel's ineffective assistance at the trial and on
appeal. New counsel was appointed for Cox and submitted
a supplemental allocatur petition. The Supreme Court denied
allocatur in April of 1996. 1
1

By that time, Cox had also been convicted of the
1992 first-degree murders of Roosevelt Watson and
Terence Stewart, both of whom he aided Lee in
killing. Cox was sentenced to life imprisonment
for the murder of Watson and death for the murder
of Stewart. His conviction for murdering Davis
was found to be an aggravating factor in support
Commonwealth v.
of his capital sentence. See
Cox, 603 Pa. 223, 983 A.2d 666, 673–75 (2009).
Those convictions have spawned federal habeas
proceedings that are before the District Court, and
Cox has filed new PCRA petitions challenging his
convictions on all three murders on the basis of new
ballistics evidence. His habeas petitions relating to
the Watson and Stewart cases have been stayed
pending those PCRA proceedings.

The following month, Cox filed a pro se petition under
Pennsylvania's Post Conviction Relief Act (“PCRA”), 42
Pa. Cons.Stat. Ann. §§ 9541–9546. The attorney who had
represented Cox in his petition to the Pennsylvania Supreme
Court was again appointed to represent Cox in his collateral
review proceeding under PCRA. Counsel filed an amended
PCRA petition asserting claims of ineffective assistance of
2

trial counsel. Judge Temin, sitting as the PCRA court, held a
hearing at which PCRA counsel chose to proceed on only one

of the multiple claims of trial counsel's ineffectiveness: failure
to impeach the Littles with their criminal records and motive
to curry favor with the Commonwealth to gain leniency in
their own cases.
2

The counseled PCRA petition claimed that trial
counsel had provided constitutionally deficient
representation when he failed to impeach the
Little sisters with (1) the fact that they had
charges pending against them when they first gave
statements to the police, were eventually convicted
of lesser charges, and were on probation at the
time of trial; (2) their alleged familial relationship
to the murder victim, Davis; and (3) a prior
inconsistent statement by Kimberly Little. Trial
counsel was also allegedly deficient for failing to
present evidence of Cox's lawful employment.

On August 28, 1998, Judge Temin denied postconviction
relief, finding that Cox had not been prejudiced by trial
counsel's failure to impeach Kimberly and Mary Little with
their criminal records because evidence aside from their
testimony established his guilt. The Superior Court affirmed
in July of 1999 and the Supreme Court denied allocatur in
December of that year. Cox filed a second PCRA petition
pro se, alleging ineffective assistance claims against trial
and PCRA counsel. Judge Temin dismissed the petition as
untimely, and the Superior Court affirmed after Cox failed to
file a brief.
In October of 2000, Cox, now represented by the Federal
Defender, filed a petition for a writ of habeas corpus in
the U.S. District Court. The petition raised eight grounds
for relief: (1) six claims of ineffective assistance of trial
counsel; (2) one violation of
*118 Brady v. Maryland,
373 U.S. 83, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963); and (3)
a claim of cumulative error. In July of 2003, a magistrate
judge issued a report and recommendation (“R & R”) in
which he determined that the ineffective assistance claims
abandoned by PCRA counsel before the PCRA court, as well
as the Brady and cumulative error claims, were procedurally
defaulted. He reviewed the remaining claim of ineffective
assistance—trial counsel's failure to impeach the Littles with
their criminal records—and concluded that the Superior
Court's decision rejecting that claim was neither “contrary
to” nor an “unreasonable application” of established federal
law. (A. 44–47 (quoting
28 U.S.C. § 2254(d)(1)).) Cox
filed objections to the R & R, arguing that PCRA counsel's
unilateral decision to abandon claims constituted cause to

App. 23
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Cox v. Horn, 757 F.3d 113 (2014)
89 Fed.R.Serv.3d 73

overcome the procedural default bar. In August of 2004, the
District Court rejected Cox's objections, adopted the R & R,
and dismissed the habeas petition. 3 We affirmed on appeal.
Cox v. Horn, 174 Fed.Appx. 84 (3d Cir.2006).
3

The District Court granted a certificate of
appealability on two issues: (1) whether the
Superior Court's resolution of Cox's ineffective
assistance of counsel claim, based on trial counsel's
failure to impeach Kimberly Little with evidence
of her criminal record, “resulted in a decision
that was contrary to, or involved an unreasonable
application of, clearly established federal law”
and (2) “whether the Superior Court's failure to
remand to the trial court to conduct a hearing to
determine whether [Cox] wanted to proceed pro
se or with counsel establishe[d] cause to overcome
a procedural default” of his other claims. Cox v.
Horn, No. 00–5188 (E.D.Pa. Aug. 11, 2004) (order
granting certificate of appealability).

Six years later, on June 20, 2012, Cox filed a motion pursuant
to
Federal Rule of Civil Procedure 60(b)(6) seeking
relief from the District Court's order of dismissal due to
the intervening change in procedural law occasioned by the
March 20, 2012 decision of the Supreme Court of the United
States in Martinez v. Ryan. The Court held in Martinez that,
under certain circumstances, error by post-conviction counsel
can constitute cause to overcome the procedural default of
claims alleging trial counsel's ineffective assistance. Cox
argued that it was only due to PCRA counsel's ineffective
assistance at the initial PCRA proceeding that his claims of
ineffectiveness against trial counsel had been abandoned and
were now procedurally defaulted.
On May 23, 2013, the District Court denied Cox's motion,
finding that “Martinez's change of law, without more,” was
not cause for relief. (A.5.) In a separate July 2, 2013 order,
the District Court issued a certificate of appealability on the
“legal question” of “whether the change in law resulting from
Martinez constitutes extraordinary circumstances that would
warrant relief” under

Rule 60(b)(6). (A.6.)

II. JURISDICTION AND STANDARD OF REVIEW

The District Court had jurisdiction pursuant to

28 U.S.C.

§§ 2241 and 2254. We have appellate jurisdiction pursuant
to 28 U.S.C. §§ 1291 and 2253.
[1]

We review for abuse of discretion a district court's

denial of a motion under Rule 60(b)(6). Brown v. Phila.
Hous. Auth., 350 F.3d 338, 342 (3d Cir.2003). A district court
abuses its discretion when it bases its decision upon a clearly
erroneous finding of fact, an erroneous conclusion of law, or
an improper application of law to fact.
F.3d 333, 341 (3d Cir.1999).

Morris v. Horn, 187

III. ANALYSIS
A. The Martinez Rule
[2] When reviewing a state prisoner's petition for a writ of
habeas corpus, a *119 federal court normally cannot review
a federal claim for post-conviction relief that has already
been rejected by a state court on the basis of an independent
and adequate state procedural rule.
Walker v. Martin, –––
U.S. ––––, 131 S.Ct. 1120, 1127, 179 L.Ed.2d 62 (2011);
Coleman v. Thompson, 501 U.S. 722, 750, 111 S.Ct. 2546,
115 L.Ed.2d 640 (1991). A petitioner may obtain federal
review of a procedurally defaulted claim, however, if he
demonstrates cause for the default and prejudice arising from
the violation of federal law.
(citing

Martinez, 132 S.Ct. at 1316

Coleman, 501 U.S. at 750, 111 S.Ct. 2546).

When Cox's habeas petition was initially under review by the
District Court, the governing rule, as recognized in Coleman,
was that error by counsel in state post-conviction proceedings
could not serve as “cause” sufficient to excuse procedural
default of a petitioner's claim. See

Coleman, 501 U.S. at

752–54, 111 S.Ct. 2546; Sweger v. Chesney, 294 F.3d 506,
522 & n. 16 (3d Cir.2002). The Supreme Court carved out a
significant exception to that rule nearly eight years after Cox's
petition was denied when, in 2012, it decided Martinez.
[3] In Martinez, the Supreme Court held that, where state
law requires a prisoner to raise claims of ineffective assistance
of trial counsel in a collateral proceeding, rather than on
direct review, a procedural default of those claims will not

App. 24
WESTlAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Cox v. Horn, 757 F.3d 113 (2014)
89 Fed.R.Serv.3d 73

bar their review by a federal habeas court if three conditions
are met: (a) the default was caused by ineffective assistance
of post-conviction counsel or the absence of counsel (b)
in the initial-review collateral proceeding (i.e., the first
collateral proceeding in which the claim could be heard)
and (c) the underlying claim of trial counsel ineffectiveness
is “substantial,” meaning “the claim has some merit,”
analogous to the substantiality requirement for a certificate of
appealability.

!· Martinez, 132 S.Ct. at 1318–20. The Court

adopted this “equitable ruling” for several reasons.
Id. at
1319. First, “[t]he right to the effective assistance of counsel
at trial is a bedrock principle in our justice system” vital to
Id. at 1317.
ensuring the fairness of an adversarial trial.
Second, a prisoner cannot realistically vindicate that right
through a claim of ineffective assistance of trial counsel
without “an effective attorney” to aid in the investigation and
presentation of the claim. Id. Finally, if the lack of effective
counsel in an initial-review collateral proceeding could not
excuse the federal procedural default bar, no court—state
or federal—would ever review the defendant's ineffective
assistance claims, given that they were first brought in that
collateral proceeding.

Id. at 1316.

In practice, however, Texas' criminal justice system “[did]
not offer most defendants a meaningful opportunity” to do
Id. at 1921. As the Texas courts themselves had
so.
observed, trial records often lacked information necessary
to substantiate ineffective assistance of trial counsel claims,
and motion filing deadlines, coupled with the lack of
readily available transcripts, generally precluded raising an
ineffective assistance claim in a post-trial motion. Moreover,
the Texas courts had invited, and even directed, defendants
to wait to pursue such claims until collateral review. The
Court “conclude[d] that where, as [in Texas], state procedural
framework, by reason of its design and operation, makes
it highly unlikely in a typical case that a defendant will
have a meaningful opportunity to raise a claim of ineffective
assistance of trial counsel on direct appeal, [the] holding in
Martinez applies.” Id.

B. Cox's

r· Rule 60(b)(6) Motion

Rule 60(b)(6) is a catch-all provision that authorizes a
court to grant relief from a final judgment for “any ... reason”

“narrow,”
id. at 1315, “limited qualification” to Coleman,
id. at 1319. Even so, what the Court did was significant.

other than those listed elsewhere in the Rule.
Fed.R.Civ.P.
60(b)(6). As we noted at the outset, courts are to dispense
their broad powers under 60(b)(6) only in “extraordinary
circumstances where, without such relief, an extreme and

See, e.g.,
id. at 1327 (Scalia, J., dissenting) (criticizing
Martinez as “a radical alteration of ... habeas jurisprudence”);

unexpected hardship would occur.”
140.

Lopez v. Ryan, 678 F.3d 1131, 1136 (9th Cir.2012)
( “Martinez constitutes a remarkable—if ‘limited,’—
development in the Court's equitable jurisprudence.” (citation
omitted)).

Ninety-two days after the Supreme Court issued its decision

The majority in Martinez noted that it was propounding a

In
Trevino v. Thaler, ––– U.S. ––––, 133 S.Ct. 1911,
185 L.Ed.2d 1044 (2013), issued the following Term, the
Supreme Court clarified that the Martinez rule applied not
only to states that expressly denied permission to raise
ineffective assistance claims on direct appeal (such as
Arizona, which Martinez addressed), but also to states in
which it was “virtually impossible,” as a practical matter,
to assert an ineffective assistance claim before collateral
review.
Id. at 1915 (quotation marks omitted). Texas
law, at issue in Trevino, ostensibly permitted (though it
did not require) criminal defendants to raise ineffective
*120 assistance of trial counsel claims on direct appeal.

Sawka, 989 F.2d at

in Martinez, Cox filed a motion under
Rule 60(b)(6),
seeking to reopen his federal habeas proceeding based on the
“significant change in procedural law” caused by the decision.
(A.74.) In ruling on Cox's motion, the District Court noted that
neither the Supreme Court nor our Court had decided whether
the rule announced in Martinez constituted an “extraordinary
circumstance” sufficient in and of itself to support a 60(b)(6)
motion and observed a divide among the courts of appeals
that had addressed the issue. The Court explained that the
Fifth Circuit, in
Adams v. Thaler, 679 F.3d 312, 320 (5th
Cir.2012), held that “a change in law, including the change
announced in Martinez, can never be the basis of 60(b)
relief.” (A.4.) In contrast, it said, the Ninth Circuit had left
open the possibility that Martinez, assessed together with
other factors on a case-by-case basis, could justify 60(b)
relief. (A. 4 (citing

Lopez, 678 F.3d 1131).) 4 Joining what

App. 25
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Cox v. Horn, 757 F.3d 113 (2014)
89 Fed.R.Serv.3d 73

it viewed to be the position of every other district court in
our Circuit to have opined on the impact of Martinez, the
Court “adopt[ed] the reasoning of the Fifth Circuit to hold that
Martinez's change of law, without more, [was] insufficient to
warrant relief under 60(b)(6).” (A.4–5.)
4

In Lopez, the Ninth Circuit also denied
60(b)(6) relief.

Rule

678 F.3d at 1137.

Although we agree with the District Court's ultimate
conclusion that Martinez, without more, is an insufficient
basis for reopening a long-since-dismissed habeas petition,
such as Cox's, we cannot endorse the path it took to arrive
at that conclusion. For one thing, Adams is not concordant
Rule 60(b)(6). For another,
with our precedent applying
we cannot determine from what it wrote whether the Court
considered factors—if any there be—beyond Martinez's
jurisprudential change in assessing Cox's request for relief.
To the extent the Court “adopt[ed] the reasoning” of Adams
and there stopped its inquiry, it did not employ the full,
case-specific analysis we require when faced with a 60(b)(6)
motion, although, as we have already noted, little was offered
by the parties in that regard.
*121 1. Whether Martinez Is Itself an Extraordinary
Circumstance
Because it was a focal point of the District Court's reasoning,
we begin with a discussion of the Fifth Circuit's decision
in Adams v. Thaler. In Adams, as in this case, the district
court dismissed a habeas petitioner's ineffective assistance
of counsel claims as procedurally defaulted under state law,
finding that errors by state post-conviction counsel could not
excuse the default. Following the Supreme Court's decision
in Martinez, the petitioner, who had been sentenced to death
in Texas state court, filed a
Rule 60(b)(6) motion seeking
relief from the order dismissing his habeas petition. The
petitioner pointed to several factors that, in combination,
established “extraordinary circumstances” and entitled him
to 60(b)(6) relief: (1) the “ ‘jurisprudential sea change’ in
federal habeas corpus law” occasioned by Martinez; (2) the
fact that his case had resulted in a death sentence; and (3)
“the equitable imperative that the true merit” of his claims
be heard.
Adams, 679 F.3d at 319. He also filed a motion
for a stay of execution pending the district court's resolution
of his 60(b)(6) motion. The district court granted the stay of
execution.

The Fifth Circuit vacated that order as an abuse of the
district court's discretion, given that the petitioner had not
shown a likelihood of success on his Rule 60(b)(6) motion.
The court determined that the 60(b)(6) motion would not
succeed because, under Fifth Circuit precedent, “[a] change
in decisional law after entry of judgment does not constitute
exceptional circumstances and is not alone grounds for relief
from a final judgment.” Id. (alteration in original) (internal
quotation marks omitted). That proposition flowed from prior
Fifth Circuit cases, which stated that “changes in decisional
law ... do not constitute the ‘extraordinary circumstances'
required for granting
Rule 60(b)(6) relief.” Hess v.
Cockrell, 281 F.3d 212, 216 (5th Cir.2002); accord Hernandez
v. Thaler, 630 F.3d 420, 430 (5th Cir.2011) (per curiam).
Concluding that Martinez was “simply a change in decisional
law” and its development of procedural default principles
was “hardly extraordinary,” the Adams court denied 60(b)
(6) relief without examining any of the petitioner's individual
circumstances.
marks omitted).

Adams, 679 F.3d at 320 (internal quotation

Adams does not square with our approach to

'

Rule 60(b)(6).

As an initial matter, we have not embraced any categorical
rule that a change in decisional law is never an adequate
basis for Rule 60(b)(6) relief. Rather, we have consistently
articulated a more qualified position: that intervening changes
in the law rarely justify relief from final judgments under
60(b)(6). See, e.g.,
Reform Party of Allegheny Cnty.
v. Allegheny Cnty. Dep't of Elections, 174 F.3d 305, 311
(3d Cir.1999) (en banc) (“ ‘[I]ntervening developments in
the law by themselves rarely constitute the extraordinary
circumstances required for relief under

~- Rule 60(b)(6).’

” (quoting
Agostini v. Felton, 521 U.S. 203, 239, 117
S.Ct. 1997, 138 L.Ed.2d 391 (1997)) (emphasis added));
Morris, 187 F.3d at 341 (same). Stated somewhat
differently, we have not foreclosed the possibility that a
change in controlling precedent, even standing alone, might
give reason for 60(b)(6) relief. See
Wilson v. Fenton, 684
F.2d 249, 251 (3d Cir.1982) (per curiam) (“A decision of the
Supreme Court of the United States or a Court of Appeals
may provide the extraordinary circumstances for granting a
Rule 60(b)(6) motion....”).

App. 26
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Cox v. Horn, 757 F.3d 113 (2014)
89 Fed.R.Serv.3d 73

Even if there is not much daylight between the “never”
position of the Fifth Circuit and the “rarely” position that we
have staked out, Adams differs from our *122 precedent in
yet another significant respect: its failure to consider the full
set of facts and circumstances attendant to the
Rule 60(b)
(6) motion under review. The Fifth Circuit in Adams ended
its analysis after determining that Martinez's change in the
law was an insufficient basis for 60(b)(6) relief and did not
consider whether the capital nature of the petitioner's case
or any other factor might counsel that Martinez be accorded
heightened significance in his case or provide a reason or
reasons for granting 60(b)(6) relief. Indeed, the court did not
address in any meaningful way the petitioner's claim that he
was not offering Martinez “alone” as a basis for relief. In
Diaz v. Stephens, 731 F.3d 370, 376 (5th Cir.2013), the Fifth
Circuit later acknowledged that Adams and its other precedent
had not cited additional equitable factors “as bearing on the
analysis of extraordinary circumstances under

Rule 60(b)

5

(6).” See also id. at 376 n. 1. The fact that the petitioner's
60(b)(6) motion was predicated chiefly on a postjudgment
change in the law was the singular, dispositive issue for the
Adams court.
5

The court in Diaz assumed, for the sake of
argument, that a district court may consider several
equitable factors in the
Rule 60(b)(6) context,
but found that consideration of those factors in
Diaz's case did not entitle him to 60(b)(6) relief.
731 F.3d at 377–78.

[4]

We have not taken that route. Instead, we have long

employed a flexible, multifactor approach to Rule 60(b)(6)
motions, including those built upon a post-judgment change
in the law, that takes into account all the particulars of
a movant's case. See Coltec Indus., Inc. v. Hobgood, 280
F.3d 262, 274 (3d Cir.2002) (noting, in the context of a
60(b)(6) analysis, the propriety of “explicit[ly]” considering
“equitable factors” in addition to a change in law); Lasky v.
Cont'l Prods. Corp., 804 F.2d 250, 256 (3d Cir.1986) (citing
multiple factors a district court may consider in assessing a
motion under 60(b)(6)). 6 The fundamental point of 60(b)
is that it provides “a grand reservoir of equitable power to
do justice in a particular case.”
Hall v. Cmty. Mental
Health Ctr., 772 F.2d 42, 46 (3d Cir.1985) (internal quotation
marks omitted). A movant, of course, bears the burden of
establishing entitlement to such equitable relief, which, again,

will be granted only under extraordinary circumstances.
Mayberry v. Maroney, 558 F.2d 1159, 1163 (3d Cir.1977).
But a district court must consider the full measure of any
properly presented facts and circumstances attendant to the
movant's request.
6

Notably, the factors outlined in Lasky parallel the
equitable factors cited by the Fifth Circuit in Diaz
as being of questionable relevance to
(6) motions.

Rule 60(b)

Gonzalez v.
The Commonwealth appellees contend that
Crosby, 545 U.S. 524, 125 S.Ct. 2641, 162 L.Ed.2d 480
(2005), effectively displaced our flexible approach in the
habeas context and precludes Rule 60(b)(6) relief based on
a change in law, including Martinez. In Gonzalez, the district
court dismissed a petitioner's habeas petition as barred by
the statute of limitations of the Antiterrorism and Effective
28 U.S.C. § 2244(d). It
Death Penalty Act (“AEDPA”),
found that the limitations period was not tolled while his
second state post-conviction motion was pending because
the motion was untimely and successive and, therefore, had
not been “properly filed.”
Id. at 527, 125 S.Ct. 2641.
The Eleventh Circuit denied a certificate of appealability
and the petitioner did not seek subsequent review of that
decision. Several months later, the Supreme Court rejected
the district court's reasoning in
Artuz v. Bennett, 531
U.S. 4, 121 S.Ct. 361, 148 L.Ed.2d 213 (2000), and held
that an application for state post-conviction relief *123 can
be “properly filed” even if it was dismissed by the state
as procedurally barred. The petitioner then filed a 60(b)
(6) motion citing Artuz as an extraordinary circumstance.
The Supreme Court rejected his argument. Noting that the
circumstances warranting 60(b) relief would “rarely occur
in the habeas context,”
Gonzalez, 545 U.S. at 535, 125
S.Ct. 2641, the Court opined that “not every interpretation of
the federal statutes setting forth the requirements for habeas
provides cause for reopening cases long since final,”
id.
at 536, 125 S.Ct. 2641. It was “hardly extraordinary” that the
district court's interpretation of AEDPA, which was correct
under the Eleventh Circuit's then-governing precedent, was
subsequently rejected in a different case.
S.Ct. 2641.

Id. at 536, 125

App. 27
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

Cox v. Horn, 757 F.3d 113 (2014)
89 Fed.R.Serv.3d 73

The Eleventh Circuit, describing Gonzalez, has observed
that, in that opinion, “the U.S. Supreme Court ... told us
that a change in decisional law is insufficient to create the
‘extraordinary circumstance’ necessary to invoke
60(b)(6).”

t

Martinez and Trevino. See
Nash v. Hepp, 740
F.3d 1075, 1078–79 (7th Cir.2014) (noting that,
per Gonzalez and prior Seventh Circuit precedent,
Martinez's change in law could not justify 60(b)
(6) relief, but analyzing the specific circumstances
of the petitioner's case, including his lack of
diligence and his prior opportunity to raise the
defaulted claims); McGuire v. Warden, Chillicothe
Corr. Inst., 738 F.3d 741, 750–52 (6th Cir.2013)
(denying 60(b)(6) motion after concluding that
Trevino did not impart new constitutional rights,
Trevino's change of the law was the sole basis for
the motion, and its rule arguably did not apply

Rule

Arthur v. Thomas, 739 F.3d 611, 631 (11th

Cir.2014) (citing
Gonzalez, 545 U.S. at 535–38, 125 S.Ct.
2641). Relying on Gonzalez, the Eleventh Circuit in Arthur,
just as the Fifth Circuit in Adams, went on to hold that “the
change in the decisional law affected by the Martinez rule
is not an ‘extraordinary circumstance’ sufficient to invoke
Rule 60(b)(6).” Id. The Commonwealth appellees cite the
Eleventh Circuit's decision in an effort to persuade us that,
in light of Gonzalez, we should abandon our case-by-case
approach to 60(b)(6) motions.
We are not persuaded. We believe that the Eleventh Circuit
extracts too broad a principle from Gonzalez, which does
not answer the question before us. Gonzalez did not say
that a new interpretation of the federal habeas statutes—
much less, the equitable principles invoked to aid their
enforcement—is always insufficient to sustain a
Rule
60(b)(6) motion. Gonzalez merely highlights, in action, the
position of both the Supreme Court and this Court that
“[i]ntervening developments in the law by themselves rarely
constitute the extraordinary circumstances required for relief
under

Rule 60(b)(6).”

Agostini, 521 U.S. at 239, 117

S.Ct. 1997 (emphasis added);
Morris, 187 F.3d at 341.
And, to be clear, the Gonzalez Court examined the individual
circumstances of the petitioner's case to see whether relief
was appropriate, concluding that relief was not warranted
given the petitioner's “lack of diligence in pursuing review [in
his own case] of the statute-of-limitations issue” eventually
addressed in Artuz.
Gonzalez, 545 U.S. at 537, 125 S.Ct.
2641. For that matter, even after categorically pronouncing
that Martinez's change in the law could not sustain a 60(b)(6)
motion, the Eleventh Circuit in Arthur briefly considered (and
rejected) “other factors” cited by the movant, including the
capital nature of his case, as justification for 60(b)(6) relief in
the wake of Martinez. 7
7

Arthur, 739 F.3d at 633.

At least three other courts of appeals have similarly
assessed a variety of factors on a case-by-case
basis when deciding whether to grant a habeas
petitioner's

Rule 60(b)(6) motion based on

Lopez, 678 F.3d at
to the petitioner's claims);
1135–37 (applying a non-exhaustive, six-factor test
to determine whether to grant 60(b)(6) motion
predicated on Martinez ).
*124

[5]

[6]

We, therefore, believe that our case-

dependent analysis, fully in line with
Rule 60(b)(6)'s
equitable moorings, retains vitality post-Gonzalez, and we
do not adopt a per se rule that a change in decisional law,
even in the habeas context, is inadequate, either standing
alone or in tandem with other factors, to invoke relief from a
final judgment under 60(b)(6). The District Court abused its
discretion when it based its decision solely on the reasoning of
Adams and failed to consider how, if at all, the capital aspect of
this case or any other factor highlighted by the parties would
figure into its 60(b)(6) analysis. We will remand to give it the
opportunity to conduct that equitable evaluation now.

2.

Rule 60(b)(6) Analysis

The grant or denial of a
Rule 60(b)(6) motion is an
equitable matter left, in the first instance, to the discretion of
a district court. We offer, however, the following thoughts to
aid the District Court in its further review of Cox's motion.
[7] First, and importantly, we agree with the District Court
that the jurisprudential change rendered by Martinez, without

r·

more, does not entitle a habeas petitioner to
Rule 60(b)
(6) relief. To be sure, Martinez's change to the federal rules
of procedural default, though “limited,” was “remarkable.”
Lopez, 678 F.3d at 1136 (internal quotation marks
omitted). Martinez sharply altered Coleman's well-settled
application of the procedural default bar and altered the
law of every circuit. The rule adopted in Martinez was also

App. 28
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

Cox v. Horn, 757 F.3d 113 (2014)
89 Fed.R.Serv.3d 73

important, crafted, as it was, to ensure that fundamental
constitutional claims receive review by at least one court.
Even so, Martinez did not announce a new constitutional rule
or right for criminal defendants, but rather an equitable rule
prescribing and expanding the opportunity for review of their
Sixth Amendment claims. See

Martinez, 132 S.Ct. at 1319;

Arthur, 739 F.3d at 629; McGuire, 738 F.3d at 750–51;
Buenrostro v. United States, 697 F.3d 1137, 1139–40 (9th
Cir.2012) (published order). A post-judgment change in the
law on constitutional grounds is not, perforce, a reason to
reopen a final judgment. See Coltec Indus., 280 F.3d at 276
(affirming denial of

Rule 60(b)(6) motion even though law

on which judgment based declared unconstitutional); Blue
Diamond Coal Co. v. Trs. of UMWA Combined Benefits Fund,
249 F.3d 519, 524 (6th Cir.2001). Much less does an equitable
change in procedural law, even one in service of vindicating
a constitutional right, demand a grant of 60(b)(6) relief.
We also hasten to point out that the merits of a petitioner's
underlying ineffective assistance of counsel claim can
affect whether relief based on Martinez is warranted. It is
appropriate for a district court, when ruling on a
Rule
60(b)(6) motion where the merits of the ineffective assistance
claim were never considered prior to judgment, to assess the
merits of that claim. See
Lasky, 804 F.2d at 256 n. 10.
After all, the Martinez exception to procedural default applies
only where the petitioner demonstrates ineffective assistance
by post-conviction counsel, as well as a “substantial” claim
Martinez, 132 S.Ct. at
of ineffective assistance at trial.
1318. When 60(b)(6) is the vehicle through which Martinez
is to be given effect, the claim may well need be particularly
substantial to militate in favor of equitable relief. 8 A *125
court need not provide a remedy under 60(b)(6) for claims
of dubious merit that only weakly establish ineffective
assistance by trial or post-conviction counsel.
8

Of course, the procedural default exception
announced in Martinez applies only in states where
ineffective assistance claims, either expressly or as
a matter of practicality, could not have been raised
on direct appeal.

Trevino, 133 S.Ct. at 1914–

15. In
Commonwealth v. Grant, 572 Pa. 48,
813 A.2d 726, 738 (2002), Pennsylvania decided

to defer consideration of ineffective assistance
of counsel claims to collateral review, making
Martinez applicable to its criminal procedural
system. At the time Cox's direct appeal and
PCRA proceeding were being adjudicated by
the Pennsylvania courts, however, Pennsylvania
required a criminal defendant to raise ineffective
assistance claims at the earliest stage of
proceedings during which he was no longer
represented by the allegedly ineffective lawyer,
for example, the post-trial motions phase or
direct appeal.
Id. at 729;
Commonwealth v.
Hubbard, 472 Pa. 259, 372 A.2d 687, 695 & n. 6
(1977). The District Court determined that, because
Cox was represented by the same attorney at trial
and on direct appeal to the Superior Court, his
PCRA proceeding presented the first opportunity to
raise an ineffective assistance of trial counsel claim
and Martinez, therefore, applied.
The Commonwealth appellees argue that Martinez
does not apply to pre-Grant Pennsylvania and
that, in any event, Cox availed himself of the
opportunity to raise ineffective assistance claims
before the trial court and the Pennsylvania Supreme
Court. We do not decide whether, as a general
matter, Pennsylvania's pre-Grant legal landscape
falls within the ambit of the Martinez rule. We
note simply that appellees have not established why
the District Court erred in concluding that, under
the pre-Grant procedural paradigm, defendants
who, like Cox, were represented by the same
counsel at trial and on direct appeal did not
have a realistic opportunity to raise an ineffective
assistance of trial counsel claim until collateral
review. Extant Pennsylvania precedent made clear
that Cox was not obligated to assert such a
claim until trial counsel had been relieved of his
representation. Cox was entitled to rely on that
guidance, and, therefore, did not have to raise his
ineffective assistance claims until PCRA review.
See
Trevino, 133 S.Ct. at 1919–20;
Sutton v.
Carpenter, 745 F.3d 787, 793–94 (6th Cir.2014).
It is true that trial counsel no longer represented
Cox in his petition for allocatur to the
Pennsylvania Supreme Court. Given the “unlikely
and unpredictable” manner in which allocatur
is granted by that court, however, a petition
for allocatur had never been seen as the first

App. 29
WESTlAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Cox v. Horn, 757 F.3d 113 (2014)
89 Fed.R.Serv.3d 73

Where a movant has not exhausted available avenues of

opportunity to raise a claim of ineffective

review, a court may deny relief under

Commonwealth v. Moore, 569 Pa.
assistance.
508, 805 A.2d 1212, 1223 (2002) (Castille, J.,
concurring in part and dissenting in part). In
addition, a party may not present new claims in
a petition for allocatur. Pa. R. A pp. P. 302(a).
Cox's trial counsel did not raise claims of his own
ineffective assistance before the Superior Court
—something he could not do, in any event, see
Commonwealth v. Green, 551 Pa. 88, 709 A.2d 382,

id. at 537, 125 S.Ct. 2641 (majority opinion);
Lopez,
678 F.3d at 1136 & n. 1; In re Fine Paper Antitrust Litig., 840
F.2d 188, 194–95 (3d Cir.1988).
A special consideration arises in this case, as well. Courts
must treat with particular care claims raised in capital cases.
Burger v. Kemp, 483 U.S. 776, 785, 107 S.Ct. 3114, 97
L.Ed.2d 638 (1987) (“Our duty to search for constitutional
error with painstaking care is never more exacting than it is
in a capital case.”). Although Cox did not receive a capital
sentence for the murder of Davis, that murder conviction was
used as an aggravating factor in arriving at a death sentence
in a separate case, albeit one that is still under habeas review.
That fact is significant.

Commonwealth v. Dancer, 460 Pa.
384 (1998);
95, 331 A.2d 435, 438 (1975)—likely barring Cox
from raising those claims in his allocatur petition.
Furthermore, courts must heed the Supreme Court's
observation—whether descriptive or prescriptive—that
Rule 60(b)(6) relief in the habeas context, especially
based on a change in federal procedural law, will be rare.

Finally, we offer no opinion on the substantiality or lack
thereof of Cox's claims or how the District Court should

Gonzalez, 545 U.S. at 535–36 & n. 9, 125 S.Ct. 2641.
Principles of finality and comity, as expressed through
AEDPA and habeas jurisprudence, dictate that federal courts
pay ample respect to states' criminal judgments and weigh
against disturbing those judgments via 60(b) motions. In that
vein, a district court reviewing a habeas petitioner's 60(b)
(6) motion may consider whether the conviction and initial
federal habeas proceeding were only recently completed
or ended years ago. Considerations of repose and finality
become stronger the longer a decision has been settled. See

weigh the various factors that may be pertinent to his Rule
60(b)(6) motion. Nor do we intimate that the Court is
precluded from reaching the same conclusion on remand
following a more comprehensive analysis. We conclude only
that, perhaps with additional briefing by the parties, a more
explicit consideration of the facts and circumstances relevant
to the concededly timely filed underlying motion would have
been, and is now, appropriate.

id. at 536–37, 125 S.Ct. 2641 (cautioning against 60(b)(6)
relief in “cases long since final” and “long-ago dismissals”);

IV. CONCLUSION

id. at 542 n. 4, 125 S.Ct. 2641 (Stevens, J., dissenting) (“In
cases where significant time has elapsed between a habeas
judgment and the relevant change in procedural law, it would
be within a district court's discretion to leave such a judgment
in repose.”). Here, Cox's direct appeal was decided in 1996
and his initial habeas petition, in *126 which his claims were
deemed defaulted, was dismissed in 2004, eight years before
Martinez.

We will vacate the order of the District Court denying Cox's
Rule 60(b)(6) motion and remand for further proceedings
consistent with this Opinion. If, following the proceedings on
remand, an appeal is filed, that appeal shall be forwarded to
this panel for decision.
All Citations

[8] A movant's diligence in pursuing review of his
ineffective assistance claims is also an important factor.
End of Document

Rule 60(b)(6). See

757 F.3d 113, 89 Fed.R.Serv.3d 73

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. 30
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

Case 2:00-cv-05188-AB Document 71 Filed 05/23/13 Page 1 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
JERMONT COX,
Petitioner

CIVIL ACTION
No. 00-5188

v.
MARTIN HORN, et. al.
Respondents

EXPLANATION AND ORDER
Petitioner Jermont Cox was convicted in 1993 of the first degree murder of Lawrence
Davis, criminal conspiracy, and possession of an instrument of crime. He was sentenced to life
imprisonment. He was represented on at trial, post-verdict motions, and direct appeal by David
McLaughlin. A new lawyer, David Silverman, was appointed to represent Cox during his
Pennsylvania Post Conviction Relief Act ("PCRA") proceedings. Although Cox, through
Silverman, raised multiple claims relating to the ineffective assistance of his trial counsel in his
PCRA petition, Silverman dropped every claim but one during the PCRA evidentiary hearing.
The PCRA court denied Cox's PCRA petition, and the Pennsylvania Superior Court affirmed.
In 2000, Cox filed a timely federal habeas petition, raising eight claims of ineffective
assistance of counsel, among other claims. On August 9, 2004, I adopted Magistrate Judge
Hart's Report and Recommendation to deny Cox's petition. I found that only one claim from his
petition had been fairly presented and exhausted in state court: that his trial counsel had provided
ineffective assistance when he failed to impeach key witnesses Kimberly and Mary Little with
their criminal records. I denied that claim on the merits. The petition presented five other
ineffective assistance claims that I determined were procedurally defaulted. Because Cox had
failed to show cause and prejudice for the default, I denied those claims without a review of the
1

App. 31

Case 2:00-cv-05188-AB Document 71 Filed 05/23/13 Page 2 of 4

merits, as required by Coleman v. Thompson, 501 U.S. 722 (1991).
Before me now is Cox's Motion for Relief from Final Judgment Pursuant to Fed. R. Civ.
P. 60(b)(6). Cox requests that I reopen his habeas petition to examine the ineffective assistance
claims that I had previously determined were procedurally defaulted. He relies on the Supreme
Court's recent decision of Martinez v. Ryan, 132 S. Ct. 1309 (2012), which held that
a procedural default will not bar a federal habeas court from hearing a substantial
claim of ineffective assistance at trial if, in the initial-review collateral
proceeding, ... counsel in that proceeding was ineffective.

Martinez, 132 S. Ct. at 1320. In other words, Martinez allows a federal court to examine on the
merits ineffective assistance of trial counsel claims that had been defaulted as a result of
ineffective assistance of post-conviction counsel. 1 It held that post-conviction counsel's failure to
raise such claims can constitute cause that would excuse a procedural default and allow a court
to examine the underlying ineffective assistance claim on the merits.
Here, Cox argues that his lawyer during his PCRA proceedings was ineffective for
waiving five claims of ineffective assistance of trial counsel, which became Claims 3, 4, 5, 6,
and 8 of his habeas petition. As his PCRA proceedings were his first opportunity to raise these
ineffectiveness claims, Cox argues that his PCRA counsel's ineffectiveness provides cause,
under Martinez, for his default of those claims. As a result, he asks me to reopen his habeas
proceedings and examine these claims, which have never been examined on the merits by any
court.
Relief from judgment under Rule 60(b)(6) is available only where the petitioner has

' This relief is available assuming that the ineffective assistance at trial claims could not have been raised earlier,
before post-conviction proceedings (such as on direct appeal). Pennsylvania used to require criminal defendants to
raise ineffective assistance claims at the earliest state of the proceedings during which the allegedly ineffective
lawyer no longer represented them. See Com. v. Hubbard, 372 A.2d 687, 695 & n.6 (Pa. 1977). This rule was in
effect at the time of Cox's direct appeal and PCRA proceedings. Because Cox was represented by David
McLaughlin at both trial and on direct appeal, his first opportunity to raise claims relating to ineffective assistance at
trial came during PCRA proceedings. Accordingly, Cox is potentially eligible for relief under Martinez.

2

App. 32

Case 2:00-cv-05188-AB Document 71 Filed 05/23/13 Page 3 of 4

demonstrated "extraordinary circumstances." Gonzales v. Crosby, 545 U.S. 524, 535 (2005).
Such circumstances "will rarely occur in the habeas context." Id. at 535. Neither the Supreme
Court nor the Third Circuit has yet ruled whether the new rule announced in Martinez constitutes
extraordinary circumstances, but the Third Circuit has stated that "intervening developments in
the law by themselves rarely constitute the extraordinary circumstances required for relief under
Rule 60(b)(6)." Morris v. Horn, I 87 F.3d 333, 341 (3d Cir. 1999) (quotations omitted). Only two
circuit courts have squarely addressed whether Martinez provides a basis for 60(b) relief. The
Fifth Circuit ruled that a change in law, including the change announced in Martinez, can never
be the basis of 60(b) relief. See Hernandez v. Thaler, 630 F.3d 420, 430 (5th Cir. 201 I); Adams
v. Thaler, 679F.3d312, 320 (5th Cir. 2012) ("The Martinez Court's crafting of a narrow,

equitable exception to Coleman's holding is hardly extraordinary."). The Ninth Circuit, by
contrast, leaves open the possibility that Martinez could provide a basis for 60(b) relief. In
interpreting Martinez in the 60(b) context, the court applied a multi-factor test, developed in
Phelps v. Alameida, 569 F.3d 1120 (9th Cir. 2009), that examines the nature of the change in

law, the petitioner's diligence, the interest in finality, any delay in requesting relief, the
connection between the new law and the judgment in question, and principles of comity. Lopez
v. Ryan, 678 F.3d I 131 (9th Cir. 2012).
In this circuit, every district court that has examined the issue has either not ruled

squarely on the question or agreed with the Fifth Circuit that Martinez's change oflaw is not, by
itself, an "extraordinary circumstance" justifying relief. Bender v. Wynder, No. 05-998, 2012
WL 6737840 (W.D. Pa. Dec. 28, 2012); Brown v. Wenerowicz, No. 07-1098, 2012WL6151191
(E.D. Pa. Dec. I I, 2012); Vogt v. Coleman, No. 08-530, 2012 WL 2930871 (W.D. Pa. July 18,
2012); Allen v. Walsh, No. 06-4299, 2013 WL 1389752 (E.D. Pa. Mar. 15, 2013) report and

3

App. 33

Case 2:00-cv-05188-AB Document 71 Filed 05/23/13 Page 4 of 4

recommendation adopted, No. 06-4299, 2013 WL 1389749 (E.D. Pa. Apr. 4, 2013); Fordv.

Wenerowicz, No. 09-3537, 2013 WL 460107 (E.D. Pa. Feb. 7, 2013); House v. Warden, SCIMahanoy, No. 08-0331, 2013 WL 297838 (M.D. Pa. Jan. 24, 2013); Fitzgerald v. Klopotoski,
No. 09-1379, 2012 WL 5463677 (W.D. Pa. Nov. 8, 2012); United States v. Correa, No. 89-163,
2013 WL 203558 (W.D. Pa. Jan. 17, 2013).
Because the Third Circuit has not yet ruled on this issue, I join the other district courts of
this circuit in adopting the reasoning of the Fifth Circuit to hold that Martinez's change oflaw,
without more, is insufficient to warrant relief under 60(b)(6).

AND NOW, this _23rd_ day of_May_ ___, 2013, it is ORDERED that
Petitioner's Motion for Relief of Judgment (ECF No. 56) is DENIED.

s/Anita B. Brody

ANITA B. BRODY, J.

Copies VIA ECF on _ _ _ _ to:

Copies MAILED on _ _ _ to:

O:\ABB 2013\A- K\Cox v. horn 60b.wpd

O:\ABB 2013\A- K\Cox v. horn 60b.wpd

4

App. 34

J.S46020/99
.COMMONWEALTH OF PENNSYLVANIA,

IN THE SUPERIOR COURT OF
PENNSYLVANIA

Appellee

v.
JERMONT COX,
Appellant

No. 2529 Philadelphia 1998

Appeal from the Order July 21, 1998
In the Court of Common Pleas of Philadelphia County
Criminal No. Feb. Term 1993 No. 3160-63
BEFORE: KELLY, STEVENS, JJ., and CIRILLO, P.J.E.

; FILED

MEMORANDUM:

'JUL t 5 t999

Jermont Cox appeals from the order of the Court of Common Pleas of
Philadelphia County dismissing his petition for collateral relief under the
Post-Conviction Relief -'Act (PCRA). 1 We affirm.
Cox is currently serving a life sentence for first degree murder. The
PCRA court succinctly rendered the circumstances of the crime as follows:
At trial, the Commonwealth proved the following: Cox and
Larry Lee ("Lee") were members of a drug business that
operated at 246 West Queen Lane in Philadelphia. Cox served
as a "look-out" and would signal his colleagues if the police
approached. On July 19, 1992 at approximately 1:55 A.M., Lee
and Lawrence Davis ("Davis") were standing beside Lee's 1979
green Malibu which was parked in the street outside 246 West
Queen Lane. Lee and Davis began a verbal argument relating to
a small amount of drugs. A physical fight ensued and Lee hit
Davis several times knocking him to the ground.
PCRA court opinion filed 8/31/98 at 2-3.

Exiting from a nearby bar, Cox

.
1

42 Pa.CS.A. §§ 9541-9546.
App. 35

J.S46020/99
observed the fight between Lee and Davis.

Approaching the two, Cox

removed a gun from Lee's car and shot Davis, hitting him in the neck, chest,
right shoulder, and right hand. Id.
Cox was convicted of first degree murder following an October 1993
bench trial, and was sentenced on October 29, 1993. Post-sentence motions
were filed, alleging insufficiency of the evidence and trial court error in
admitting evidence of unrelated drug activity.

Those motions were denied

on April 4, 1994. Cox also filed a pro se motion to remove his trial counsel
for ineffectiveness.

Argument was heard on that motion on February 17,

1994, after which the motion was denied.
Still represented by his original trial counsel, Cox appealed to the
Superior Court on April 12, 1994, and on June 2, 1995, a panel of this Court
affirmed the trial court, finding that the evidence was sufficient to support
Cox's conviction, and that the trial court committed no error in admitting the
evidence of Cox's involvement in a drug ring. On December 15, 1995, new
counsel was appointed to represent Cox on appeal to the Pennsylvania
Supreme Court, but allowance of appeal to the Supreme Court was denied
on April 30, 1996.
On May 28, 1996, Cox filed a PCRA petition, and PCRA counsel was
appointed on August 13, 1996. Despite appointment of counsel, Cox filed a

pro se supplement to his PCRA petition on September 11, 1996, alleging
ineffectiveness of trial/direct appeal counsel.

- 2 -

PCRA counsel then requested

App. 36

J.S46020/99
. and received permission to withdraw as Cox's counsel, and new PCRA
counsel was appointed on April 28, 1997.

An amended PCRA petition was

filed on June 11, 1997, and on September 9, 1997, the Commonwealth filed
a motion to dismiss the petition.

The motion to dismiss was denied on

October 16, 1997, and an evidentiary hearing was subsequently held on
February 4, 1998.

The PCRA court then dismissed the PCRA petition on

March 20, 1998, but a motion for reconsideration was filed and argument
was held on May 8, 1998. On July 23, 1998, Cox was notified that his PCRA
petition was formally dismissed.
Cox filed the instant appeal on August 12, 1998, raising the following
issues:
(1) Did the PCRA court err in dismissing appellant's PCRA
petition on the basis that trial counsel's admitted negligence in
failing to establish the bias and motive to fabricate of the
Commonwealth's sole eyewitness did not sufficiently affect the
outcome in this first-degree murder case because other evidence
implicated him, where this other evidence was equally consistent
with a finding of third degree murder and the Commonwealth's
sole eyewitness provided the only evidence of an intentional
killing?
(2) Did the PCRA court err in assessing the prejudicial impact of
trial counsel's negligence by temporarily placing itself back into
the role of factfinder, as opposed to an appellate-type reviewing
court, and then erroneously concluding that it would not have
affected her prior decision to convict had counsel properly
impeached the Commonwealth's sole eyewitness?
Appellant's brief at 3.
When addressing the denial of a PCRA petition, this Court operates
under a well-established standard: We are limited to examining whether the

-3-

App. 37

J.S46020/99
PCRA court's determination is supported by the evidence of record and
whether the determination is free of legal error.

Morales, _

Commonwealth v.

Pa. _, 701 A.2d 516, 520 (1997) (citing C~mmonwealth v.

Travaglia, 541 Pa. 108, 117 n. 4, 661 A.2d 352, 356 n. 4 (1995)). To be
eligible for relief under the PCRA, the petitioner must plead and prove by a
preponderance of the evidence that the conviction or sentence in question
arose from one or more of the errors enunciated by Section 9543(a)(2), 2
and that the issues raised have not been previously litigated or waived. 42
Pa.C.S.A. 9543(a)(2), (3).

Section 9543(a)(2) requires the petitioner to show that the challenged
conviction or sentence resulted from one or more of the following:
(i) A violation of the Constitution of this Commonwealth or the
Constitution or laws of the United States which, in the
circumstances of the particular case, so undermined the truthdetermining process that no reliable adjudication of guilt or
innocence could have taken place.
(ii) Ineffective assistance of counsel which, in the circumstances
of the particular case, so undermined the truth-determining
process that no reliable adjudication of guilt or innocence could
have taken place.
(iii) A pleq of guilty unlawfully induced where the circumstances
make it likely that the inducement caused the petitioner to plead
guilty and the petitioner is innocent.
(iv) The improper obstruction by government officials of the
petitioner's right of appeal where a meritorious appealable issue
existed and was properly preserved in the trial court.
(v) Deleted by statute.
(vi) The unavailability at the time of trial of exculpatory evidence
that has subsequently become available and would have
changed the outcome of the trial if it had been introduced.
(vii) The imposition of a sentence greater than the lawful
maximum.
(viii) A proceeding in a tribunal without jurisdiction.
42 Pa.C.S.A. § 9543.
2

-4-

App. 38

J.546020/99
Here, Appellant has raised an ineffectiveness of counsel argument at
the earliest possible time after he was no longer represented by the counsel
in question. 3 We turn, therefore, to the merits of his ineffectiveness claim.
Counsel is presumed effective, Commonwealth v. Garnett, 613 A.2d

569 (Pa .Super. 1992), and to defeat that presumption a petitioner must
prove (1) t hat the course of action the petitioner alleges counsel was
ineffective for failing to pursue had arguable merit; (2) that counsel had no
reasonable basis for the act or omission in question; and (3) that the act or
omission prejudiced the petitioner to the point that but for the act or
omission

the

outcome

Commonwealth

v.

of

Appel,

the

547

case
Pa.

would

171,

have

689

been

A.2d

891

different.

(1997);

Commonwealth v. Fowler, 550 Pa. 152, 703 A.2d 1027 (1997).
Here, Cox alleges that his trial counsel was ineffective in failing to
1

bring out evidence that an eyewitness to Davis murder had a criminal
record.

In its opinion of August 31, 1998, the PCRA court acknowledged

that trial counsel conceded th~t he made no attempt to investigate the
witness 1 criminal reco rd, and that he had no reasona ble basis fo r failing to

do so.

PCRA court opinion filed 8/31/98 at 4 n.1.

The PCRA court

concluded,

3

The claim of ineffectiveness of counsel must be ra ised at the earliest stage
in the proceeding where the petitioner is no longer represented by the
allegedly ineffective counsel. Commonwealth v. Miller, 564 A.2d 975
(Pa.Supe r. 1989).
App. 39

J.S46020/99
however, that Cox is nevertheless unable to show ineffectiveness of counsel
because he cannot show that he was prejudiced by counsel's tactics, since
even without the witness' testimony, there was sufficient evidence to convict
Cox of first degree murder. Id. at 4. Specifically, Cox made a statement to
the police on January 14, 1993, admitting that he shot the victim, who died
as the result of close range gun shot wounds to his neck and chest; there
was no evidence to suggest the crime was an accident; and the ballistics
expert testified that it was highly unlikely for the gun to accidentally
discharge three times. Id. at 4-5.
There is no question here whether or not Cox killed Davis; the only
question is Cox's degree of guilt. "A criminal homicide constitutes murder of
the first degree when it is committed by an intentional killing." Pa.C.S.A. §
2502(a).

The use of a deadly weapon on a vital part of the victim's body

establishes the degree of intent necessary to support a conviction for first
degree murder.

Commonwealth v. Collins, 549 Pa. 593, 702 A.2d 540

(1997). The evidence produced in this case shows that Cox used a deadly
weapon on vital parts of the victim's body.
As such, we cannot conclude that counsel's omission rendered the
verdict unreliable, because the witness' testimony was not critical to the
prosecution's case.

Because there is additional evidence to sustain a

conviction for first degree murder without taking into account the testimony
of the witness in question, Cox has failed to show that he was prejudiced by

- 6-

App. 40

J.S46020/99
''

his trial counsel's failure to impeach that witness. Therefore, he is unable to
show ineffectiveness of counsel, and the PCRA court correctly denied his
petition.
Affirmed.

- 7-

App. 41

J-A21029/95

.

COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF

)

PENNSYLVANIA

)

)

)

v.

)
)
)

JERMONT COX,
Appellant

}

NO. 01303 PHILADELPHIA, 1994

Appeal from the Judgment of Sentence in the
Court of Common Pleas of Philadelphia County,
Criminal Division, No. 93-02-3160-3163
BEFORE:

ROWLEY, P.J., TAMILIA and SAYLOR, JJ.

.

MEMORANDUM:

l FILED

On October 28,
Jennont Cox,
criminal
crime. 3
the

was

1993,

a

bench trial,

found guilty of murder in the

conspiracy2
The

after

.JUN - 2 1995

court

possef:!sion

of

an

first

purported
to life

aggravating

imprisonment.

degree, 1

instrument

thereafter sustained defendant's

commonwealth I s

sentenced appellant

and

the appellant,

of

demurrer to

circumstances

and

Cox now appeals

from

this October 29, 1993 judgment of sentence.
Appellant

argues

the

verdict

of

f irs't

degree

murder

was

against the weight and sufficiency of the evidence, averring· there
was

no

evidence

of

premeditation.

Appellant

challenges

the

standard definition of premeditation and contends premeditation
"requires time for some reflection on the contemplated action, and
it

is

that

aspect,

so

condemned

by

society

throughout

civilization, which generates the awesome punishments attached to
a first degree murder conviction .... "

(Appellant's brief at 7.)

l1a Pa.C.S. § 2502{a).
2rd.,

§

903.

3 Id.,

§

907.

l

App. 42 .....--··

-

J-A21029/95
The test for determining the sufficiency of the evidence is
to

view

the

therefrom,

evidence,

and

all

reasonable

inferences

•

deducible

in a light most favorable to the Commonwealth, as the

verdict winner,

and determine whether the fact-. finder reasonably··

could have concluded all elements qf the crime were established
beyond a

reasonable doubt.

Commonwealth v.

Commonweal.th v.

Baker,

Woods,

531 Pa.

432 Pa.

541,

614 A. 2d 663

{1992};

Super.

28,

638 A.2d 1013

(1°994) . A new trial is warranted on a challenge to

the weight of the evidence only if the verdict was so contrary to
....

the evidence as to shock one's sense of justice. ColillDOnweal. th v .
Fox,

422

Pa.

Pa.

Super.

__ ,

634

224,

A.2d

619 . A.2d
(1993} .

222

327

( 199 3) ,

denied,

alloc.

We will not substitute our

i

judgment for that of the trial court where issues of weight and ·
credibility of
degree

murder,

killed

the

the
the

victim

deliberation.
statements

made

before

with

malice

must

the

may

defendant

CoIIlIIlonwealt:h

v.

To prove first

establish

aforethought,

Premeditation

by

Id.

Davis,

331

defendant

premeditation

and

inferred

from

be

and

the

from

the

Pa.

Super.

attendant
59,

479

(1984). Whenever there is a conscious purpose to bring

about death,
met.

concerned.

Commonwealth

Id.

circumstances.
A.2d 1077

evidence are

Fox,

the requirement of premeditation and deliberation is
supra.

No

premeditation

specific
will

defendant's

act

of

Super.

459

A.2d 1

475,

killing.

be

length
found

of

to

commonweal.th

time

have
v.

is

necessary

entered
Clemmons,

into
312

a
Pa.

rev'd on other grounds, 505 Pa.

(1983),

356, 479 A.2d 955 (1984).

App. 43
2

r

-

J-A21029/95
•

The evidence reveals the appellant, a look-out for an illegal
drug enterprise,

observed a

physical altercation between a

co-

worker/runner and a customer, calmly laid his six-pack of beer on
a

car,

retrie~ed

a

.38

caliber

handgun

from

the

car,

and

repeatedly shot the victim/customer from a distance of four feet,
through the neck, shoulder and chest. In his statement to police,
defendant

admitted

shooting

the

victim

but

stated

the

gun

had discharged accidentally.
The

trial

court,

sitting

as

the

finder

of

fact,

found

defendant's explanation of the shooting incredible. We wi11· not
disturb

this

finding.

See

Fox,

supra.

Further,

the

trial

court's verdict was not so contrary to the evidence presented as
to shock this Court's sense of justice.
Appellant
irrelevant

also

argues

evidence

of

the

his

trial

court

involvement

erred by admitting

in

an

illegal

drug

operation, thereby causing him undue prejudice.
A judge has broad powers concerning the conduct of a trial,
particularly
evidence.
336

with

regard

Commonwealth v.

to

the

Kunk:l.e,

admission
425 Pa.

or

Super.

exclusion
499,

of

623 A.2d

(1993). All such evidence must be relevant, however, tending

to prove or disprove a material fact in issue, make such fact more
or less probable or afford the basis.· for or support a reasonable
inference

regarding

Commonwealth v.

the

existence

.of

a

material

fact.

Ingram, 404 Pa. Super. 560, 591 A.2d 734 {l.991).

Evidence of other crimes may be introduced to establish motive,
intent,

an absence of mistake,

a

common scheme or an identity

linking the accused to the second crime.

CoII11I10nweal.th. v.

Lank,

App. 44
3

...

--··

J-A21029/95
•

518

Pa.

290,

543

A. 2d 491

(1988} .

evidence ma· ·r-

The

;o be

admitted under circumstances where the probative value outweighs

any tendency to prejudice the defendant.
We find
allowing

Id.
J '

the trial court did not abuse its discretion by
evidence

into

testimony

establishing

defendant's

connection with the illegal drug operation. The evidence served
to establish defendant's motive in shooting the unarmed victim who
was involved in a fistfight with another man who worked as a drug/
money runner. The evidence was not introduced for the purpose of
attacking appellant's ch~racter but to establish the killing was
not an act of

random violence.

Also,

evidence of defendant's

involvement with the drug operation was offered to contradict
appellant's

statement

he

had.

shot

the

victim

accidentally.

Finally, appellant has shown no evidence to support his contention
he was prejudiced by the introduction of this evidence.
Having found each of appellant's arguments devoid of merit,
'

we affirm the October 29, 1993 judgment of sentence.

Judgment of sentence affirmed.

App. 45
4

"'

•

PHILADELPHIA POLICE DEPARTMENT
FIREARM IDENTIFICATION UNIT

CASE: 92FIU-3195

DC #: 92-14-053610

ARREST:

OCCURRENCE DATE/TIME:

LOCATION:

SUBMITTED BY:

BADGE/PAYROLL:

SECURITY:

DIST/UNIT: 6003

DATEfIIME SUBMITTED: 07/19/ 1992/ 4:56 pm

PROPERTY REC: 0390326

TAKEN FROM NAME:

AGE:

ADDRESS:

ASSOC.DC#:

BULLET SPECIMEN(S):
COATED:

UNCOATED: Lead

JACKETED:

TYPE:LRN

BASE: Cupped

CALIBER: 38/ 357

CANNELURE 1: 2Knurled

CANNELURE 2:

MARKED: X-1

WEIGHT: 153.3 gms.

923195

LAG: I/RH

LWD:

GWD:

REMARKS: Bullet Specimen, B-1:
Portion of nose area and circtunference disto1ted, gouged and bearing foreign markings. Base distort.e d. Tlu·ee LAG visible. Blood and
tissue-like substances attached. De.contaminated, by examiner, for safety.

Stated Sotu·ce: Tan ME's envelope labled: Davis, Lany, 3198, Left Anu.

Contl'ol #:

N/A

LAB FEE $ 630.00

EXA!\flNATION DATE: 04/11/2013

EXA!\flNER: Police Officer 1 KELLY D WALKER
#5576/225211

CO-EXAMINER: Police Officer 1 JESUS CRUZ
#9748/205768

App. 46
c:\labsave\714954.RPT

Page 1 of 4

PHILADELPHIA POLICE DEPARTMENT
FIREARM IDENTIFICATION UNIT

LAB# 92FIU-3195

DC# 92-1 4-053610

PR# 0390326

BULLET SPECIMEN(S):
COATED:

UNCOATED:

JACKETED: Copper Alloy

TYPE:FMJ

BASE: Flat

CALIBER: 38/357
CANNELURE 2:

CANNELURE 1:
MARKED: X-2

WEIGHT: 158.8 gms.

923195

LAG: 05R

LWD:

GWD:

REMARKS: Bullet Specimen, B-2:
No major defonnation, however, circumference bears foreign markings. Decontaminated, by examiner, for safety.

Stated Source: Tan ME's envelope labled: Davis, Lany, 3198, Back R Chest.

EXA!\IlNATION DATE: 04/11/2013

EXA!\IlNER: Police Officer 1 KELLY D WALKER
#5576/225211

CO-EXAMINER: Police Officer 1 JESUS CRUZ
#9748/205768

App. 47
c:\labsave\714954.RPT

Page2 of 4

PHILADELPHIA POLICE DEPARTMENT
FIREARM IDENTIFICATION UNIT

LAB# 92FIU-3195

D C# 92-14-053610

PR#0390326

REMARKS: CONCLUSIONS: Re-Examination: (Detem1ined through mi.crosc,opic comparison)

B- 1 and B-2, when compared against each other, were NOT fired from the same fireann.
(LAG Dimensions)

NOTE: Re-Examination not in complete agreement with previous examination (See above conclusion).
Previous report listed a lead fragment. No lead fragment was present at time of my examination.

EXA!\11NATION DATE: 04/23/2013

EXA!'\fiNER: Police Officer 1 KELLY D WALKER
#5576/225211

CO-EXAMINER: Police Officer 1 JESUS CRUZ
#9748/205768

App. 48
c:\labsave\714954.RPT

Page 3 of 4

PHILADELPHIA POLICE DEPARTMENT
FIREARM IDENTIFICATION UNIT

LAB# 92FIU-3195

DC# 92-14-053610

PR# 0390326

REMARKS: Crosscheck Request per ADA Affronti:

B-2 (this repo1t) was fired from the same firea1m as B-1, B-2 and BJ-I thm BJ-3 ofFIU#923736 DC#92- 19-061074.

EXA!\11NATION DATE: 04/23/2013

EXA!'\fiNER: Police Officer 1 KELLY D WALKER

CO-EXAMINER: Police Officer I JESUS CRUZ

#5576/225211

#9748/205768

App. 49
c:\labsave\714954.RPT

Page 4 of 4

